<html>
<title> - The Status Of Russian Participation in the International Space Station Program</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
[From the U.S. Government Printing Office Online via GPO Access]
[Page i-ii]
[wais.access.gpo.gov]
[DOCID: f:38882.wais]


[[Page i]]
 
THE STATUS OF RUSSIAN PARTICIPATION IN THE INTERNATIONAL SPACE STATION PROGRAM

==============================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 1997

                               __________

                                [No. 2]

                               __________

            Printed for the use of the Committee on Science







                    U.S. GOVERNMENT PRINTING OFFICE                
                           WASHINGTON : 1997                              



[[Page ii]]




. 
                            C O N T E N T S

                               __________
                                                                   Page
February 12, 1997:
    Hon. John H. Gibbons, Director, Office of Science and 
      Technology Policy, Washington, DC..........................    10
    Hon. Daniel S. Goldin, Administrator, National Aeronautics 
      and Space Administration, Washington, DC...................    16
    Marcia S. Smith, Specialist in Aerospace and 
      Telecommunications Policy, Congressional Research Service, 
      Library of Congress, Washington, DC........................    21

                                APPENDIX

Responses to Post-Hearing Questions of Hon. F. James 
  Sensenbrenner, Jr., Chairman, Committee on Science by:
    Hon. John H. Gibbons.........................................    53
    Hon. Daniel S. Goldin........................................    56


[[Page (1)]]

THE STATUS OF RUSSIAN PARTICIPATION IN THE INTERNATIONAL SPACE STATION  PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 1997

             U.S. House of Representatives,
                              Committee on Science,
                                                    Washington, DC.
    The Committee met at 1 p.m., in room 2318 of the Rayburn 
House Office Building, Hon. F. James Sensenbrenner, Jr., 
Chairman of the Committee, presiding.
    Chairman Sensenbrenner. The Committee on Science will be in 
order.
    Today, we're holding our first Full Committee hearing on 
Russian participation in the Space Station. I use the term 
hearing advisedly because, unfortunately, due to circumstances 
beyond this Committee's control, we have been unable to meet to 
formally organize.
    Having said that, Congressman Brown and I agree that there 
is some Committee business that cannot wait, such as the 
subject of today's hearing.
    Therefore, without objection, we will proceed in the same 
manner as if we were holding a formal hearing. Despite the fact 
that no Democrats have been elected to the Committee except Mr. 
Brown, I will recognize those Democrats who have expressed an 
interest in Science Committee issues. I will do so without 
prejudice one way or the other to their eventual election to 
this Committee by the House of Representatives as a whole.
    Today, it is appropriate that we should focus on the 
International Space Station as our first order of oversight. 
After all, the International Space Station is the most complex 
and advanced project in the history of international scientific 
cooperation. It is also one of the Clinton Administration's 
largest foreign policy initiatives with Russia.
    Sometimes Congress shies away from tough oversight of 
government programs because we fear that the problems revealed 
may undermine political support. That may be so, but it should 
not stop us from seeking out the truth. If there are problems, 
we need to know them so that they can be fixed. If there are 
successes, we need to know them as well so that they can be 
repeated. Eventually, the facts will make themselves known and 
we will have to deal with the consequences, better sooner than 
later.
    With that in mind, we're going to explore the problems that 
Russia is having in meeting its commitments to the 
International

[[Page 2]]

Space Station. We're also going to examine the implication 
those problems have on our efforts.
    According to NASA's Inspector General, the Russian Space 
Agency informed NASA in late 1995 that if its contractors did 
not receive funding from the Russian government by December 1, 
1995, they would not be able to work on the Service Module and 
deliver it on time. Even before that, there was concern that 
the pace of work on the Service Module in Russia had slowed.
    The problem we face is that the Russian government's 
Finance Ministry is not providing budgeted funds to the Russian 
Space Agency to pay its contractors. It's as if Congress passed 
the budget for NASA, but the Treasury Department refused to pay 
any of the bills NASA incurred. Of course, U.S. companies would 
stop working if no funding was forthcoming. That's basically 
what's happening in Russia.
    Until recently, NASA continued to report to the Science 
Committee that Russia would be able to recover lost days. 
Concurrently, the Administration raised the issue with the 
Russian government in several ways, including meetings between 
Vice President Gore and Russian Prime Minister Viktor 
Chernomyrdin. At those meetings, Vice President Gore received 
more pledges from Russia that it would solve the problem.
    In January of 1996, Congressman Jerry Lewis and I went to 
Russia to raise this issue. Former First Deputy Prime Minister 
Oleg Soskovets promised us that the Russian government would 
solve these problems shortly. They have not and the problem has 
gotten worse.
    The Russian Service Module, which is the Station's third 
element and the first Russian-funded element, is now behind 
schedule and will be at least 8 months late. As a result, NASA 
has to spend its reserves solving problems created by the 
Russian government. Those are reserves that could have been 
spent here as a result of contingencies that have arisen here.
    The U.S. program is walking a financial tightrope. It 
certainly cannot tolerate any more instability caused by 
external pressures. I support building the International Space 
Station with or without the Russians. I would prefer to have 
the Russians in as a full partner, but we must ask whether we 
can wait any longer for them to decide whether to fund their 
part of the program. It may be time to give this program some 
tough love.
    Last week, Congressmen Bob Livingston, Jerry Lewis, Dana 
Rohrabacher, and I sent Vice President Gore a letter asking him 
to resolve these issues with Prime Minister Chernomyrdin during 
his visit last week to the United States. Continued instability 
is no longer tolerable and will have significant budget 
implications, which this Committee, Congress, NASA and the 
Administration will have to address. Today, Dr. John Gibbons, 
the White House Science Advisor, is here to tell us how those 
meetings went and what the Administration plans to do to take 
the Space Station forward in a fiscally sound manner.
    NASA Administrator Dan Goldin is here to explain what 
options NASA has for moving ahead. He'll tell us what course of 
action the agency recommends and summarize our technical 
options for resolving this instability.

[[Page 3]]

    Marcia Smith of the Congressional Research Service is here 
to give us some historical background on the program and share 
her expertise on Russian space activities. Ms. Smith works for 
Congress and is one of the Nation's leading authorities on U.S. 
and Russian space programs. Her participation at this hearing 
makes it unique, since we will hear testimony from the White 
House, NASA, and the Legislative Branch.
    I appreciate the willingness of all of our witnesses to 
appear on the same panel so that we can undertake this hearing 
in an efficient and forthright manner. I plan to make it a 
practice to hold one-panel hearings in the Full Committee. This 
will allow Committee members to participate more fully because 
hearings will be short and members will be able to attend the 
entire discussion.
    Finally, I want to thank Mr. Brown for agreeing to this 
hearing so soon in our legislative year. I am looking forward 
to working with him and the Committee's other members to make 
this a productive 2 years for the Science Committee.
    At the end of the last year, we managed to reach some 
compromises on commercial space issues and sent a commercial 
space bill to the Senate. That bill came within a few votes of 
passing in the other body. I look forward to working with Mr. 
Brown and the other members of the Committee on a commercial 
space bill and hope we can get it enacted into law in 1997.
    Before turning to the gentleman from California for his 
opening statement, I would like to ask the other members to 
refrain from making oral statements today so that our time 
focuses on an exchange with the witnesses. I will be more than 
happy to grant a unanimous consent request to put members' 
written statements into the record.
    Additionally, we should all confine our questions this 
afternoon to the topic of the Space Station and not raise the 
issue of the President's budget request. The Space and 
Aeronautics Subcommittee will open the process of writing 
NASA's authorization very shortly and we will have plenty of 
opportunity to discuss the Agency's budget there.
    I now recognize the gentleman from California for his 
opening statement. Before doing so, let me say that, without 
objection, all of the other members may insert opening 
statements in the record following Mr. Brown's statement.
    Mr. Brown?
    Mr. Brown of California. Thank you very much, Mr. Chairman.
    I would like to make a brief statement and then, in 
accordance with his request and because of his keen interest in 
the space program, I will yield what remaining time I may have 
to Mr. Roemer.
    I would like to take a moment to congratulate you, Mr. 
Sensenbrenner, on your selection as Chairman of the Science 
Committee. You've been a hard-working and fair-minded member of 
this Committee and I look forward to working with you in the 
months to come. While I regret that events beyond our control 
have temporarily delayed the Committee's organizational 
meeting, I believe that today's hearing is important and I 
support your decision to hold it.
    Forty years ago, the space age dawned in the midst of an 
ongoing and deadly serious rivalry between the Soviet Union and 
the Unit

[[Page 4]]

ed States. In many ways, our two nations' space programs 
continued to reflect that rivalry in the decades following the 
1957 launch of Sputnik. The Space Station program initiated in 
1984 was intended as a response to Soviet achievements in 
space, as it was meant to be a technological marvel and 
springboard for international space cooperation between the 
United States, Canada, Europe, and Japan, our original 
partners.
    The end of the Cold War has changed the paradigm under 
which we had conducted our Nation's civil space program. As a 
result, both the Bush and Clinton Administrations have sought 
avenues for cooperation rather than confrontation with Russia 
in space.
    The International Space Station is a case in point. 
Inclusion of Russia in the Space Station program is only 
logical given its vast experience as a space-faring nation. 
Russia brings unique skills and perspectives to our joint 
endeavors in space, and at its best, offers a glimpse of the 
benefits possible through international cooperation in science 
and technology.
    Nevertheless, we are holding today's hearing because there 
currently are problems in our Space Station partnership. If 
uncorrected, those problems could lead to an unraveling of much 
of what we've been able to accomplish together. That would be 
very regrettable and I would hope that all would work to avoid 
such an outcome.
    Partnership in the International Space Station program 
does, however, require that each partner meet its commitments. 
I appreciate the enormous challenges facing Russia as it 
attempts to reform and reinvent many of its most basic 
institutions, and I have admiration for the progress that has 
been made in Russia over a relatively short time. Yet the Space 
Station cannot be viewed simply in terms of Russian domestic 
priorities. It is an international cooperative activity, and 
the failure of one partner to meet its commitments to the Space 
Station program can have damaging consequences for the other 
partners.
    I ask unanimous consent to include the full text of my 
remarks in the record.
    Chairman Sensenbrenner. Without objection.
    [The prepared statement of Mr. Brown follows:]

             OPENING STATEMENT BY HON. GEORGE E. BROWN, JR.

                           February 12, 1997

    Good afternoon. I would first like to take a moment to congratulate 
Mr. Sensenbrenner on his selection as Chairman of the Science 
Committee. He has long been a hard-working and fair-minded member of 
this Committee, and I look forward to working with him in the months to 
come. While I regret that events beyond our control have temporarily 
delayed the Committee's organizational meeting, I believe that today's 
hearing is important, and I support the Chairman's decision to hold it.
    Forty years ago, the space age dawned in the midst of an ongoing 
and deadly serious rivalry between the Soviet Union and the United 
States. In many ways our two nations' space programs continued to 
reflect that rivalry in the decades that followed the 1957 launch of 
Sputnik. The Space Station program initiated in 1984 was intended as a 
response to Soviet achievements in space as it was meant to be a 
technological marvel and springboard for international space 
cooperation between the United States, Canada, Europe, and Japan.
    The end of the Cold War has changed the paradigm under which we had 
conducted our Nation's civil space program. As a result, both the Bush 
and Clinton Ad

[[Page 5]]

ministrations have sought avenues for cooperation rather than 
confrontation with Russia in space.
    The International Space Station is a case in point. Inclusion of 
Russia in the Space Station program is only logical given its vast 
experience as a spacefaring nation. Russia brings unique skills and 
perspectives to our joint endeavors in space, and at its best offers a 
glimpse of the benefits possible through international cooperation in 
science and technology.
    Nevertheless, we are holding today's hearing because there 
currently are problems in our Space Station partnership. If 
uncorrected, those problems could lead to an unraveling of much of what 
we have been able to accomplish together. That would be very 
regrettable, and I would hope that all would work to avoid such an 
outcome.
    Partnership in the International Space Station program does, 
however, require that each partner meet its commitments. I appreciate 
the enormous challenges facing Russia as it attempts to reform and 
reinvent many of its most basic institutions, and I have admiration for 
the progress that has been made in Russia over a relatively short time. 
Yet the Space Station cannot be viewed simply in terms of Russian 
domestic priorities. It is an international cooperative activity, and 
the failure of one partner to meet its commitments to the Space Station 
program can have damaging consequences for the other partners.
    I am heartened by Prime Minister Chernomyrdin's assurances to Vice 
President Gore last week regarding Russia's intention to meet its Space 
Station commitments. Nonetheless, I believe that I speak for many 
Members on both sides of the aisle when I say that we will be watching 
with keen interest to see whether or not Russia takes the necessary 
steps to resolve the current funding crisis and put the Station program 
on stable ground. I hope so, both for the sake of our Space Station 
cooperation and for the sake of the overall cooperative framework that 
has been established between the two nations.
    Thank you.

    Mr. Brown of California. And I yield such time as I may 
have remaining to Mr. Roemer.
    Chairman Sensenbrenner. The gentleman from Indiana.
    Mr. Roemer. Thank you, Mr. Brown. And I congratulate our 
new Chairman, Mr. Sensenbrenner, for having this hearing.
    Certainly, this is a day of good news and bad news. The 
good news is that NASA continues to perform in very, very 
credible and worthwhile ways by which we are all proud of the 
personnel there, chasing down Hubble, repairing Hubble, and 
continuing to do a magnificent job on that operation.
    The bad news is we have yet another chapter to the ongoing 
episode of cost overruns, scheduling delays, and more problems 
for science and taxpayers with the Russian contribution here on 
the Space Station.
    Let me remind the Committee that Ronald Reagan devised this 
program to be completed by 1994, within a decade, and to have 
eight scientific missions.
    Today, in 1997, we're not looking at completion within the 
decade, within the millennium, or any time soon. And the 
General Accounting Office now estimates this to cost $94 
billion, up from the original pricetag of $8 billion.
    It seems to me, Mr. Chairman, that foreign policy now is 
dictating fiscal policy and science policy. Instead of 
introducing technical maturity into this program, every day we 
introduce more technical risk for the hard-working people at 
NASA.
    And I would hope that this Committee at some point would 
make a decision to either terminate the Russian commitment to 
this program, which introduces more instability every day, or 
terminate the program altogether.

[[Page 6]]

    Today, it's the Service Module. Tomorrow, will it be the 
reboost capabilities that the Russians can't provide? Will it 
be the crew return vehicle? Will it be the life support 
systems? Will it be the roll control?
    What is next from their contribution?
    I am very worried about this, Mr. Chairman, and I applaud 
you for having, I think, this very important hearing.
    [The prepared statement of Mr. Roemer follows:

                      Statement of Hon. Tim Roemer

                       House Committee on Science

                           February 12, 1997

    Mr. Chairman, I would like to take this opportunity to commend you 
for holding this hearing to examine the Russian government's delays in 
its contributions to the International Space Station.
    I commend you for focusing the Committee's first hearing on this 
critical issue, and I applaud your leadership in allowing this 
Committee to examine the Russian funding crisis and what steps NASA 
should take if it continues to violate its commitment to the program. I 
share your distress about the status of the Space Station project, and 
remain gravely concerned about NASA's ability to function effectively 
as severe and multiple problems continue to emerge and complicate the 
program. It is evident that Russia's failure to meet its commitments is 
reaching crisis proportions. Mr. Brown, our distinguished Ranking 
Member, warned us that this would happen. His prediction has been, 
unfortunately, all too sharp.
    For more than 1 year, Prime Minister Chernomyrdin and the State 
Duma have issued hollow promises to fund construction of the Service 
Module. Mr. Chairman, as you have stated, the Russian government has 
now fallen so far behind schedule in building the Service Module, that 
continued economic and political support is questionable and the 
schedule for Station construction is in grave danger at best. To date, 
the United States has poured $17.4 billion into the Space Station, and 
it now seems certain that Russia is on the verge of significantly 
changing its commitment.
    Two years ago, Russia was brought into this program to provide for 
most of the launches and hardware needed for the early phases. NASA 
Administrator Dan Goldin testified before this Committee that the Space 
Station could not be built without the Russians. In hindsight, that was 
a big mistake. For the benefit of the other nations vested in this 
project and our taxpayers, we need to know immediately if Russia can 
fulfill its promise to deliver the module and related hardware critical 
to the construction of the Station's navigation and control systems. We 
must accept no less than for Russia to be entirely forthcoming so 
decisions can be made quickly on any redesign that may be necessary. 
Promises from Russia--and from NASA--must be flatly refused.
    Mr. Chairman, further delays are unacceptable. Production of the 
Service Module up to 8 months behind schedule, and NASA might be forced 
to alter its schedule for launching and assembling major pieces of the 
Space Station. The trail of broken promises over the last year proves 
that there is only one way to guarantee that the money is delivered: 
The United States must get tough now.
    While I remain strongly opposed to continued funding for the Space 
Station, I am proud of the NASA technical teams that have responded so 
well to an endless stream of crises that routinely force them to revise 
their plans. It has become constant crisis management. But NASA's 
engineers need some stability and time for technical maturity. It 
simply cannot be argued that problems associated with spending caps, 
continued cost overruns, and program delays is consistent with good 
design and sound management. It seems that more technical risk is 
injected each day into this program when it needs technical maturity. I 
am sure that morale in personnel could become a large problem.
    Not to mention the other problems clouding the future of the Space 
Station: Toward the end of last year, problems with computer-related 
launch delays and shuttle Columbia's jammed hatch further complicate 
NASA's ambitious schedule and any hopes for building the Station at a 
fair and reasonable cost to taxpayers. And just last month, the 
National Academy of Sciences issued a report detailing the threat of 
meteorites and orbital debris, which will pose an additional threat to 
the Russian Service Modules unless they are upgraded to American 
standards. Addi

[[Page 7]]

tionally, NASA could face the daunting task of convincing the 
governments of Canada and Italy that they should stay involved in order 
to preserve a crumbling international partnership.
    As I have asserted, our association with Russia is still too risky, 
and the benefits of the Space Station are still too limited. Russia's 
participation in the program has always been uncertain, as the dilemma 
with the Service Module clearly demonstrates. If Russia is permitted to 
keeps its ``co-lead'' role in this partnership, the American taxpayer 
will inevitably be asked to bear not only the costs associated with the 
serious delays inflicted by Moscow on the construction of the Service 
Module--the taxpayer will also have to pay untold millions, and 
probably billions, more to underwrite Russia's continued participation.

    Mr. Hall. Mr. Chairman?
    Chairman Sensenbrenner. The gentleman from Texas?
    Mr. Hall. I ask unanimous consent to put opening statements 
in the record.
    Chairman Sensenbrenner. Without objection.
    Mr. Hall. Lauding the Chairman. And I would have been more 
eloquent, loquacious and at greater length in praising you had 
I been recognized orally.
    So I'll submit this, if I might, my opening statement.
    [Laughter.]
    Chairman Sensenbrenner. The Chair is in a quandary. Maybe 
he should quit while he's ahead.
    [Laughter.]
    Again, all members will have the opportunity to put opening 
statements in the record at this point.
    [The opening statements of Mr. Rohrabacher, Mr. Weldon, Mr. 
Hall, Mr. Cramer, Ms. Lofgren, and Mr. Capps follow:]

               Opening statement of Hon. Dana Rohrabacher

               Chair, Subcommittee on Space & Aeronautics

  to the House Science Committee's Hearing on ``The Status of Russian 
           Participation in the International Space Station''

                      Wednesday, February 12, 1997

    Mr. Chairman, thank you for holding this hearing at such a critical 
time for the International Space Station project. As the more senior 
members on both sides of the aisle will recall, I was an early 
supporter of involving the former Soviet Union in our space program 
generally, and in the Space Station specifically. Indeed, in my first 
meeting with newly-appointed NASA Administrator Goldin in 1992, I urged 
him to avail the U.S. space program of the capabilities Russia had 
built up during the Cold War.
    Let me be clear, however, that I did not tell Mr. Goldin that 
Russia could make a substantial financial contribution to joint space 
projects. Indeed, a few years earlier I had explained to scientist Carl 
Sagan at a hearing in this room that he was probably naive to believe 
that the already-faltering Soviet Union could afford to share the 
astronomical costs of an international human mission to Mars.
    But our former adversaries did have tremendous technical 
capabilities to offer us. The former USSR had already placed eight 
Space Stations in orbit. These had given them considerable experience 
in space operations and in-space research. The Soviets had turned the 
manufacture and launch of large rockets into an everyday, low-cost, 
assembly-line operation. And to support these and other projects, they 
had developed new rocket engines, materials, and other technologies.
    Of course, I wasn't the only Member of Congress interested in 
working with the Russians. In March of 1992, the former Space 
Subcommittee Chairman, Mr. Hall of Texas, was prescient in calling on 
NASA to seek to use the Russian Mir as a precursor to our own Space 
Station.
    What especially excited me, though, was that the Russians wanted to 
privatize these abilities and resources and earn commercial revenues 
through foreign trade. In short, they wanted to be like us; they wanted 
to be capitalists.

[[Page 8]]

    So what have we done since 1992 with our new comrades? In the Space 
Station program, we've gone from buying things of value from their 
industry (the approach under the Bush Administration) to creating a 
governmental partnership with their bureaucracy. So they then have to 
tax their weak economy to fund their industry to do something with us. 
Instead of practicing capitalism with them, we've been the ones 
favoring a state-controlled approach.
    Doesn't that seem crazy? Shouldn't we be encouraging them to 
liberate their economy? Was it so important that our government feel 
comfortable by working with their government, rather than simply urging 
our industry to create commercial alliances with theirs, as has worked 
so well in the case of Boeing's deal with Krunichev to build the 
Functional Cargo Block?
    Today, we are finally beginning to face up to the schedule and cost 
risk introduced into this program by depending on the Russian 
government (as opposed to industry) to help build the Space Station. 
But I would argue that even ignoring the Russian government's failure 
to deliver on their promises, the whole idea of a government-government 
partnership wasn't very good to start with.
    Mr. Chairman, like all of us, I cheered and wept at the end of the 
Cold War. If we have learned anything, we've learned that it is free 
peoples working together, trading together, and profiting together that 
can win a ``warm peace'' by fostering freedom and promoting prosperity. 
I strongly recommend that we pursue those approaches in space 
cooperation that build and strengthen real ties between private 
initiatives in Russia and the U.S., rather than depending on the 
artificial and highly-political relationships of diplomats and 
bureaucrats.
                                  _____
                                 
    Opening Statement of Rep. Dave Weldon for Space Station Hearing

    Washington, D.C.--U.S. Representative Dave Weldon (R-FL) issued the 
following statement in advance of today's Science Committee hearing on 
Russian involvement in the International Space Station program:

``Today's hearing is a vital step in keeping the International Space 
    Station a viable program, and I thank Chairman Sensenbrenner for 
    his leadership on this important issue. The Russian government has 
    made a very serious commitment to the United States and the other 
    international partners in this exciting project, but they have yet 
    to fulfill their end of the bargain. Their inaction potentially 
    jeopardizes the entire Space Station program, and it is up to the 
    White House--which was largely responsible for the decision to 
    place Russia in the `critical path'--to show leadership and find 
    solutions to this problem.''

``I believe Russia's extensive experience in space is a tremendous 
    resource for our space program, as we have seen with the highly 
    successful Shuttle-Mir missions of the last 2 years. However, the 
    White House must begin to rethink the Russian role in the Space 
    Station program if the Russians continue to delay funding for the 
    Service Module, which is a critical component of the Space 
    Station.''

``I also believe the Russian participation is salvageable, but decisive 
    steps must be taken now to prevent serious and perhaps irreparable 
    harm to the Space Station's budget, schedule, and political 
    support. This hearing will be an important opportunity for NASA and 
    the White House to explain their solutions to this problem, and I 
    look forward to hearing from the witnesses.''
                                 ______
                                 
                           OPENING STATEMENT

                         by HON. RALPH M. HALL

                           February 12, 1997

    Good afternoon. I too would like to join in wishing my long time 
colleague Mr. Sensenbrenner all the best as he assumes the duties of 
chairing the Science Committee. I look forward to working with him.
    In the interests of getting to the testimony of our distinguished 
witnesses, I will be brief in my opening remarks. My support of the 
Space Station is long-standing, because I believe that the research 
conducted on the Space Station will offer many benefits to our citizens 
once the Station becomes operational.
    My support for sensible cooperation with Russia on space research 
is also long-standing. We should never be afraid to work together with 
our former adversaries, especially if it can reduce costs to the 
American taxpayer and lead to increased research capabilities.

[[Page 9]]

    I recognize that Russia is having some difficulties right now. I 
want to continue to cooperate with them in space research. At the same 
time, I intend to watch out for the interests of our hard-working 
taxpayers. America cannot afford to pay for problems brought on by 
Russia's failure to adequately fund its contributions to the Space 
Station. My inclination is to resist sending any American jobs or any 
additional American money to Russia to fix a funding problem that they 
have promised to fix for themselves.
    I hope that today's hearing will shed some light on the current 
situation with Russian participation in the Space Station program, and 
I look forward to hearing from our witnesses.
    Thank you.
                                 ______
                                 
                      STATEMENT BY REP. BUD CRAMER

  HEARING ON THE STATUS OF RUSSIAN PARTICIPATION IN THE INTERNATIONAL 
                             SPACE STATION

                           February 12, 1997

    Mr. Chairman, thank you for making this important issue the first 
priority of our Committee during the 105th Congress. Like many in this 
room, I believe the prospects of international involvement in our 
pioneering scientific efforts holds great appeal. Truly, we can do more 
together than we can apart.
    However, we are at a crossroads with the International Space 
Station. The way we approach these tough decisions regarding Russian 
participation in the program will have long term implications on the 
future of international scientific efforts. Just as we must expect the 
best from ourselves, we must demand the best from our partners. In no 
way should we ever lower our expectations of this program in order to 
ease the load of any one of our partners.
    With the leadership of Vice President Gore and NASA Administrator 
Dan Goldin, I am confident we can satisfactorily address these issues. 
To that end, I welcome the comments of Mr. Goldin before our Committee 
today. Mr. Goldin has been a tough advocate for the United States in 
our dealings with our international partners and continues to portray 
the no nonsense style of leadership necessary to the successful 
completion of this program.
    In addition Mr. Chairman, I look forward to the comments of Dr. 
John Gibbons, White House Science Advisor, and Ms. Marcia Smith, of the 
Congressional Research Service. Again Mr. Chairman, I appreciate your 
leadership on this issue and look forward to working with you.
                                 ______
                                 
Statement of Congresswoman Zoe Lofgren before the Subcommittee on Space

                           February 12, 1997

    Mr. Chairman, I want to thank you for convening this hearing on 
Russian participation in Space Station Alpha. The issues raised in the 
press and in the space community over the past few weeks are serious, 
and I am pleased that we have the opportunity to air these concerns and 
move towards an effective solution.
    Like most of you, I come to this hearing as a strong supporter of 
the Space Station Program. I believe that the Station is a vital 
element of our national science program, and will provide lasting 
benefits to our whole community. I don't need to remind this Committee 
that Space research has driven many of the most important inventions 
and technological advances of this century, including EKG and 
pacemakers, as well as huge leaps in computing. There are few areas, 
from weather forecasting to materials development, that have been left 
untouched by our Space program.
    Space Station Alpha is our next challenge, and we must rise to meet 
it. While we can speculate on specific new breakthroughs that will come 
out of the program, I prefer to speculate that the advances we develop 
will be in areas that we never considered--that the Space Station will 
benefit us in ways we never dreamed possible.
    In reviewing some of the options NASA has outlined for 
consideration, I hope that we remember that there are other important 
elements to our national space program. Mission to Planet Earth, SOFIA 
and other programs cannot be compromised in any proposal to save the 
Station. It is vitally important that we maintain a balanced program, 
with the Station as a key, but not sole, element. I also believe that

[[Page 10]]

the final solution must protect our long-term national interests, 
including security and foreign relations. I hope that NASA takes these 
issues into account during the next few months.
    I look forward to hearing from Mr. Goldin, and I commend him for 
his strong commitment to the Space Station Program. I thank all the 
witnesses for their testimony.
                                 ______

                     STATEMENT OF REP. WALTER CAPPS

             SCIENCE COMMITTEE HEARING ON THE SPACE STATION

                           FEBRUARY 12, 1997

    Thank you, Mr. Chairman, for holding this hearing and for the 
opportunity to speak here when I know we are still awaiting the final 
resolution of the Committee numbers. I think it is most gracious of you 
to accommodate the new Committee members and I appreciate your 
generosity. I hope that this is an indication of the way this Committee 
will work together during the 105th Congress.
    I won't take a lot of time, Mr. Chairman. I want to say just a few 
things. First, yesterday during our briefing with Mr. Goldin, my 
colleague from California, Chairman Rohrabacher, made reference to the 
bipartisan nature of the Science Committee and I was very heartened to 
hear him say that. I think that any of you who know me know that I have 
come to Congress with the great hope of working with all of the Members 
here, not just those on my side of the aisle. So I appreciate Mr. 
Rohrabacher's sentiments in this area.
    I want to thank Mr. Goldin, Dr. Gibbons and Ms. Smith for coming in 
today to talk to us today about NASA's biggest project, the Space 
Station, and the problems we have been having with the Russian 
component. Like many Members here today, I have been following the 
reports of the Russian difficulties with, I must admit, a little alarm.
    Let me say that I have a great appreciation for the 
Administration's efforts in bringing the Russians in on the project, 
both for the practical help they may be able to give us and as a vital 
component of our foreign policy. For the good of our bilateral 
relationship, and for our substantive policy objectives in space, we 
need to find a way to engage the Russians and find a beneficial outlet 
for the technical prowess of their space program. But at the same time, 
we need to be very sure that their funding problems don't cripple the 
whole program.
    I look forward to hearing what our witnesses have to say about all 
this. Thank you, Mr. Chairman.

    Chairman Sensenbrenner. It will be my practice to swear in 
witnesses that appear before the Full Committee. I would ask 
each of our three witnesses to stand and raise their right 
hands.
    Do you solemnly swear or affirm that the testimony you will 
give before this Committee will be the truth, the whole truth, 
and nothing but the truth?
    Mr. Gibbons. I do.
    Ms. Smith. I do.
    Mr. Goldin. I do.
    Chairman Sensenbrenner. I would like to ask each of the 
witnesses to summarize their statements in about 5 minutes' 
time, so that we'll have the most time for questions and 
answers.
    First, I would like to recognize Dr. John H. Gibbons, the 
President's Science Adviser.
    Dr. Gibbons?

TESTIMONY OF HON. JOHN H. GIBBONS, DIRECTOR, OFFICE OF SCIENCE 
             AND TECHNOLOGY POLICY, WASHINGTON, DC

    Mr. Gibbons. Thank you, Mr. Chairman, and I would like to 
add my congratulations to you for your assuming the Committee 
Chairmanship, and I look forward to working with you and the 
other

[[Page 11]]

members of the Committee in the months ahead on a number of 
science and technology issues.
    I know the Committee is particularly interested today in 
the most recent round of bilateral discussions between the 
United States and Russia, the so-called Gore-Chernomyrdin 
Commission. The most recent meeting held here last week marked 
the eighth meeting of this commission and it covered a wide 
range of topics, including energy, environment, business 
development, defense, health, science and technology and space.
    We found that these semi-annual high-level meetings between 
leaders in Russia and the United States provide an action-
oriented platform in which we can identify opportunities to 
work together on win-win situations, recognize problems, and 
then deal with them, solve those problems through this unique 
kind of relationship.
    For example, in the Gore-Chernomyrdin science and 
technology committee, which I co-chair with Deputy Prime 
Minister Vladimir Fortov, we made significant progress in 
promoting our science and technology cooperation and in 
clearing away a number of administrative and legal barriers to 
scientific cooperation between our two nations. And I provide 
some specific examples in my written testimony, Mr. Chairman.
    We believe that this cooperation with Russia through the 
Commission is helping to stabilize and to sustain the civilian 
science and technology base in Russia, and beneficially link 
that base to our own base here in the United States.
    Because the preservation of that base in Russia is so 
crucial to Russia's long-term economic and political stability, 
and because that in turn is so important to America, we are 
committed to continuing our efforts in this regard and to 
focusing our attention on the application of science and 
technology to economic growth, environmental protection, and 
human health.
    Sometimes that's difficult in a country which is undergoing 
such extraordinary and unpredictable transitional changes, as 
is happening in Russia today.
    Now, as you know, the Space Committee, chaired by 
Administrator Goldin and Mr. Yuri Koptev of the Russian Space 
Agency, has also been an important part of that Gore-
Chernomyrdin agenda for several years.
    Since the first meeting in 1993, we've extended U.S.-
Russian space cooperation across a range of NASA programs, most 
notably, in the human space flight area, in part because Russia 
has such extraordinary and unique experience in this area that 
we can capitalize upon.
    Our ongoing series of Space Shuttle flights on the Mir 
Station has been a resounding success since our first fly-by in 
1995. And since then, we've completed five successful Shuttle-
Mir docking missions, each of which has helped us learn much 
more about living and working in space.
    The use of Mir has also enabled us to make some very 
important scientific progress, I believe, in advance of the 
International Space Station's completion. Through the Shuttle-
Mir program, we are making significant gains in tissue culture 
research, in protein crystal growth, and in the study of human 
bone loss.

[[Page 12]]

    These experiments are, again, further described in my 
written statement.
    Beyond the Shuttle-Mir program, our next phase of space 
cooperation with Russia is the development of the International 
Space Station. Since the redesign of the Space Station in 1993, 
we've worked hard to build and sustain a coalition of support, 
both internationally and domestically, for the Space Station.
    And your support and that of many other members of this 
Committee, Mr. Chairman, has been critical in forging a 
consensus within the Congress and in reinforcing the importance 
that we place on this program abroad.
    One of the obvious challenges has been keeping to our 
baseline budget and scheduling and integrating Russian 
components into that program.
    As you know, the FGB tug, which we bought from the 
Russians, is on budget and on schedule. However, we've been 
working hard to address delays in the other components that 
were mentioned in the opening remarks from the Committee, which 
are indeed responsibilities of the Russian government to 
provide.
    I'm referring specifically to the Service Module, which is 
meant to provide orbital control and life support for the 
International Space Station. That Service Module was originally 
scheduled to be launched in April of 1998, as the third element 
in the construction of the Station.
    Now last fall, the Russians informed us that due to a lack 
of funding, the Service Module was running behind, perhaps as 
much as 8 months behind schedule. Over the past several months, 
we have been emphasizing to the Russians the importance of 
maintaining the Service Module's development and in minimizing 
further delays.
    As a stop-gap measure, we rephased $20 million of the 
existing funds from Shuttle-Mir activities and applied that $20 
million to work on the Service Module.
    During our discussions, then, with the Russians last week 
at the Gore-Chernomyrdin meeting, we reiterated in the 
strongest terms that they need to meet their commitments on the 
Service Module as a partner in the Space Station program. We 
made it clear that if they failed to meet those commitments, we 
must take steps that will inevitably have the effect of 
reducing Russia's partnership role in the program.
    Prime Minister Chernomyrdin responded by committing to 
provide by the end of February the necessary funds to proceed 
with construction and he informed us that adequate funds were 
budgeted in 1997 to keep the Service Module on track.
    While we're very highly pleased with the Prime Minister's 
commitment to the Vice President--in fact, he challenged the 
Russian Space Agency to recover 2 months of that 8 months of 
lost schedule--I think we must ensure that the overall Space 
Station program is not jeopardized by further unforeseeable 
problems with the Service Module.
    That is, we need to look very carefully at our contingency 
options which we've spoken with you about before, meanwhile, 
keeping an eye on the several steps that should be happening 
this month with

[[Page 13]]

respect to the proof of the pudding of the Russians putting 
money into the Service Module activities.
    And I think Mr. Goldin will give you an update on that in a 
few minutes.
    So between now and the end of the month, we will continue 
to examine two contingency options to protect against any 
further delay on the Russian Service Module.
    The first option is to utilize existing hardware from the 
Naval Research Laboratory as an Interim Control Module to keep 
the Space Station in orbit until the Service Module is 
delivered.
    A second option is for NASA to examine with the Khrunichev 
Design Bureau in Russia a more robust Interim Control Module 
that is based on the design of the FGB tug. That design also 
has some other positive features which Mr. Goldin can relate to 
you.
    These options are also further described in my written 
testimony, so I won't go into them now.
    Chairman Sensenbrenner. Without objection, the written 
testimony will be placed in the record.
    Mr. Gibbons. Thank you for thinking of that, sir.
    Mr. Chairman, I am optimistic about Mr. Chernomyrdin's 
commitment to deliver on his statement that he made at the 
Gore-Chernomyrdin meeting. We're obviously going to look very 
closely at whether the Russian Space Agency actually receives 
the promised funding by the end of the month, and if it does, 
we will adjust our contingency plans accordingly. If it does 
not, we expect to be in a position to decide on the two options 
I just mentioned during the month of March.
    Now in the past, when the program has faced challenge like 
this, the Administration and the Congress have worked closely 
together to identify and to implement solutions on a bipartisan 
basis. And that's why we applaud your holding this hearing 
today.
    As we work through this issue together, I want to assure 
you that the Administration and my office and NASA will 
continue to closely work with you and the Committee on the 
critical decisions that inevitably come when one is facing such 
a high technology challenge as the International Space Station.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gibbons follows:]

                   EXECUTIVE OFFICE OF THE PRESIDENT

                OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                         WASHINGTON, DC. 20502

                    Testimony of Dr. John H. Gibbons

           Director, Office of Science and Technology Policy

     before the Committee on Science, U.S. House of Representatives

                           February 12, 1997

    Good afternoon, Mr. Chairman and members of the House Science 
Committee. It is a pleasure to be appearing before you today to discuss 
the status of our cooperation with the Russians in the International 
Space Station program. Before I begin, let me take this opportunity to 
congratulate you, Mr. Chairman, on your recent as

[[Page 14]]

sumption of the Science Committee chairmanship. I look forward to 
working with you to advance our common interests in promoting the 
nation's continued investments in science and technology.
    Mr. Chairman, I know that the committee is interested in the most 
recent round of bilateral discussions which took place last week under 
the auspices of the Gore-Chernomyrdin Commission. These discussions 
marked the eighth meeting of the commission and covered a range of 
topics including energy, the environment, business development, 
defense, health, science, technology, and space. In each of these 
areas, we have made important advances in our relationship with Russia. 
We have found that these frequent, high-level meetings provide an 
action oriented platform for movement on our program and policy 
priorities.
    Let me take one moment to briefly highlight some of the activities 
of the Gore-Chernomyrdin Science and Technology Committee, which I co-
chair with my Russian counterpart, Deputy Prime Minister Fortov. Under 
this committee, the U.S. and Russia are engaged in numerous projects 
that build on our long-standing ties to promote science and technology 
cooperation for our mutual benefit. For instance, at Lake Baikal in 
Russia, American and Russian scientists working with a Russian drilling 
enterprise have successfully extracted 250-meter core samples that 
contain a record of climate change over the past 4.5 million years. 
Another example can be seen in the field of high-energy physics, where 
we are working with the Russians to upgrade the D-zero detector at 
Fermi National Accelerator Laboratory. The ultimate success of this 
project would be the discovery of physics beyond the Standard Model of 
elementary particles, possibly in the form of new and unheralded types 
of particles.
    The Gore-Chernomyrdin Commission's Science and Technology Committee 
is also helping to clear away administrative and legal barriers to 
scientific cooperation between our two nations, including taxes and 
duties on imported science resources, differences in intellectual 
property rights, restrictions on data access, and other impediments to 
the free exchange of scientific information. In addition, we are 
encouraging the use of Western-style peer review processes within the 
Russian science community.
    We believe that our cooperation with Russia through the Gore-
Chernomyrdin Commission is helping to sustain the civilian science and 
technology base in Russia and to beneficially link it to our own. 
Because the preservation of this base is crucial to Russia's long-term 
economic and political stability, we are committed to continuing our 
efforts in this regard, and to focusing our attention on the 
application of science and technology to economic growth, environmental 
protection, and human health.
    As you know, Mr. Chairman, the Space Committee chaired by NASA 
Administrator Dan Goldin and Russian Space Agency Director Yuri Koptev 
has also been an important part of the Gore-Chernomyrdin Commission's 
agenda from the beginning. Since the Commission's first meeting in 
1993, we have expanded U.S.-Russian space cooperation across the full 
range of NASA programs. Most notably, we have expanded our cooperation 
in human space flight with the joint Shuttle-Mir rendezvous and docking 
activities and the inclusion of Russia in the International Space 
Station program.
    As I am sure you are aware, the ongoing series of Shuttle-Mir 
missions has been a resounding success since our first rendezvous 
mission took place in February 1995. Four months after that initial 
fly-by, we conducted the first international space docking since the 
1975 Apollo-Soyuz mission as the Space Shuttle Atlantis linked up with 
the Mir space station. Since then, we have completed four more 
successful Shuttle-Mir docking missions, each of which has helped us 
learn more about living and working in space. The Russians have 
accumulated an enormous amount of experience with long-duration human 
space flight, and our Shuttle-Mir missions are allowing us to gain from 
their experience and to develop the joint teamwork that will be 
critical to the successful assembly of the International Space Station.
    The use of Mir has also allowed us to make exciting scientific 
progress in advance of the International Space Station's completion. We 
started out the Shuttle-Mir science program with some 20 experiments 
and now have 80 that are producing significant results. We have 
expanded the duration of cell culture experiments in weightless 
environments from two weeks to over four months, giving us greater 
insight into the three-dimensional growth of tissues and tumors. We 
have used cutting-edge technology to grow protein crystals in space at 
rates 30 times higher than those achieved on earth. And, from 
measurements on our astronauts, we have learned that bone loss rates do 
not lessen over time--a troublesome but very important finding.
    Beyond the Phase I Shuttle-Mir activities, the next major phase of 
our space cooperation with Russia is the development of the 
International Space Station. The

[[Page 15]]

Space Station program is arguably the most significant and complex 
technological activity ever undertaken in peacetime by an international 
partnership. It includes the participation of 14 nations, including the 
U.S., Russia, Japan, Canada, and the members of the European Space 
Agency. When completed, the International Space Station will offer 
unprecedented opportunities for innovative scientific research and 
technology development.
    Since the redesign of Space Station Freedom in 1993, we have worked 
hard to build and sustain a coalition of support, both internationally 
and domestically, for the Space Station. Your support in particular, 
Mr. Chairman, has been critical in forging a consensus in the Congress 
and in reinforcing the importance we place on this program abroad.
    Clearly, one of the major challenges has been keeping to our 
baseline schedule and integrating Russian components into the program. 
As you know, the FGB tug, which we bought from the Russians under 
subcontract with our prime contractor, is on budget and will be ready 
for launch later this year. However, we have been working hard to 
address delays in the production of other key components which are the 
responsibility of the Russian government to provide. I am referring 
specifically, of course, to the Service Module, which is meant to 
provide orbital control and life support for the International Space 
Station. The Service Module was initially scheduled for launch in April 
1998 as the third element in the Space Station's construction.
    Mr. Chairman, we all know the Russians are experiencing 
extraordinary economic, fiscal, and political difficulties as they face 
the challenges of transitioning to a market economy, and their overall 
space program is no exception. As a result, the Russians informed us 
last fall that the Service Module was approximately eight months behind 
schedule. Over the past several months, we have been emphasizing to the 
Russians the importance of maintaining the Service Module's development 
and minimizing further delays. As a stopgap measure, we rephrased $20 
million of the existing funds from the Shuttle-Mir activities and 
applied it to work on the Service Module.
    During our discussions with the Russians last week, we reiterated 
in the strongest terms that they need to meet their commitments on the 
Service Module as a partner in the Space Station program. We made it 
clear that if they fail to meet those commitments, we must take steps 
that will have the effect of reducing Russia's partnership role in the 
program. I am pleased to tell you that Prime Minister Chernomyrdin 
responded to Vice President Gore by stating that the Russian government 
would begin by the end of February to provide necessary funds to 
proceed with construction, and that adequate funds were budgeted in 
1997 to keep the Service Module on track. While we are highly pleased 
with the Prime Minister's commitment--in fact, he challenged the 
Russian Space Agency to recover two months of lost schedule--we must 
insure that the overall Space Station program is not jeopardized by 
further schedule problems with the Service Module.
    Therefore, between now and the end of this month, we will continue 
to examine at least two near-term contingency options to protect 
against any further delay on the Russian Service Module. The first 
option is to utilize existing hardware from the Naval Research 
Laboratory as an interim control module to keep the Space Station in 
orbit until the Russian Service Module is delivered. This hardware was 
originally developed for use as an upper stage to launch classified 
payloads into orbit. NASA is currently in discussions with the Naval 
Research Lab to assess the technical feasibility of this option.
    The second option is for NASA to examine with the Khrunichev Design 
Bureau in Russia a more robust interim control module based on the 
design of the FGB tug. If pursued, this approach would offer the added 
advantage of providing a refueling capability for extended operations 
should the Service Module delay be prolonged.
    Mr. Chairman, we are optimistic that the Prime Minister will 
deliver on his commitment. We will be looking very closely at whether 
the Russian Space Agency receives the promised funding by the end of 
this month. If it does, we will adjust our contingency plans 
accordingly. If it does not, we expect to be in a position to decide on 
the two options I described by early March.
    In the past, when this program has faced challenges like this, the 
Administration and Congress have worked together closely to identify 
and implement solutions on a bipartisan basis. As we work through this 
issue, I want to assure you that the Administration, my office, and 
NASA will coordinate closely with you and the committee as critical 
decisions on the program are made.
    Let me now close by saying a few words about the FY 1998 NASA 
budget that we submitted to Congress last week. As you know, the FY 
1997 budget runout projected a significant decline in the NASA budget 
from $13.7 billion in FY 1997 to $11.6 billion in FY 2000. The budget 
we have proposed for this year calls for the

[[Page 16]]

restoration of some $3 billion for NASA over the next five years. 
Agency baseline funding will go from $13.5 billion in FY 1998 to $13.2 
billion in FY 2000, then remain stable at that level through FY 2002.
    To help ensure that the Space Station continues to be developed as 
planned and within its promised budget, the President's FY 1998 budget 
includes a proposal to provide multi-year funding for the program until 
assembly is complete in 2002. This proposal is consistent with the 
multi-year efforts sought by this committee in the past. Your support 
for this measure would be appreciated.
    The FY 1998 budget also includes full funding for the International 
Space Station program, strengthened commitment to Mission to Planet 
Earth, and solid support for the Reusable Launch Vehicle program and 
aeronautics initiatives. In addition, NASA's five-year space science 
budget has received a $1 billion augmentation. As we push forward with 
the development of the International Space Station, we must ensure that 
our other priorities within NASA continue to receive our strong 
support. Overall, this budget and the programs it will support are 
responsive to the President's new space policy and are a vital 
component of the Administration's investment strategy in science and 
technology.
    This concludes my opening statement. I look forward to answering 
any questions you may have on this matter.

    Chairman Sensenbrenner. Thank you, Dr. Gibbons.
    Mr. Goldin?

  TESTIMONY OF HON. DANIEL S. GOLDIN, ADMINISTRATOR, NATIONAL 
      AERONAUTICS AND SPACE ADMINISTRATION, WASHINGTON, DC

    Mr. Goldin. Mr. Chairman, I'd like to submit my formal 
testimony for the record and summarize, if that's okay with 
you.
    Chairman Sensenbrenner. Without objection, it will be 
included in the record.
    Mr. Goldin. I'd like to congratulate you, Mr. Chairman, on 
ascending to the role of leading this very prestigious 
Committee and thank you for holding this hearing so soon after 
the Gore-Chernomyrdin Commission meeting.
    It gives members and the public the opportunity to learn 
more about the International Space Station and some of the very 
difficult issues we're working with.
    Mr. Chairman, I know you and some other members are going 
to Russia next week. Your trip reaffirms the importance 
Congress places on this issue. We look forward to the 
perspective you will bring back from your visit.
    I'd like to talk about three things in my opening 
statement--the strengths Russia brings to the Station, the 
problems we face, and our plan of action.
    First, the strengths.
    The Russians have incredible expertise. They are the only 
country in the world that's had women and men in orbit 
continuously for 10 years. We are learning from them.
    Their participation gives us critical redundancy in the 
functions of life support, attitude control, extra-vehicular 
activity, and launch support.
    It also gives us significantly more power and pressurized 
volume.
    Finally, our budgeting assumed that they will perform so we 
could save money, not to spend our precious reserves to cover 
their financial problems.
    Now the second point, the problems. Most of you are well 
aware of them.

[[Page 17]]

    We've known for 16 months that the Station funds were not 
being released by the Russian government. Time and again, we 
were told the problem would be resolved.
    It wasn't.
    As we've received information, we have passed it on to you 
for advice and counsel as it became clear that the first 
Russian element, the Service Module, would be delayed. I know 
your frustration has grown. Mine has too. It's costing us time 
and money and the morale of our people.
    Right now, the Russian Space Agency is waiting to receive 
$100 million by the end of February. If we cannot validate that 
the money is flowing, and that there is progress in outfitting 
the Service Module, we must pursue another alternative.
    We have refined our contingency plans and know precisely 
what to do--and when to do it--should the Service Module fail 
to be delivered.
    My written testimony discusses these options.
    We have come to a critical juncture, a fork in the road, if 
you will. For the first time, we now have a very specific 
commitment from the Russian government on amounts and dates.
    We will take action based only on observed performance, not 
on mere statements of intent.
    Promises have been made before. The only thing we're 
interested in now is the bottom line.
    Before I close, I'd like to say a word of well-deserved 
praise for the Americans and all our international partners 
working on the Station. These dedicated scientists and 
engineers have done an incredible job on a very difficult 
project.
    We're very, very proud of them working under difficult 
circumstances.
    I commit to you that I'll do all in my power that the 
International Space Station will be built. And I remain 
cautiously optimistic about Russia's participation.
    Let us not forget why we brought the Russians into the 
program. We could gain incredible scientific capabilities. We 
could develop cutting-edge technologies. We could have the 
knowledge that Russia is focusing its technological expertise 
with us to benefit humanity and promote world peace.
    But this partnership has to be built on responsibility and 
integrity. NASA is committed to these principles.
    We look forward to this Committee's leadership and 
guidance.
    We all want the same thing for the future--peace and 
cooperation, not fear and conflict. With your support, the 
International Space Station can be an important part of that.
    It can be a symbol and reality of a new, hard-won 
partnership that broke all the rules of history to find a new 
course, a new way for two former Cold War enemies and the 
world.
    Thank you very much.
    [The prepared statement of Mr. Goldin follows:]


[[Page 18]]


Statement of Daniel S. Goldin, Administrator, National Aeronautics and 
                          Space Administration

before the Committee on Science, United States House of Representatives

                           February 12, 1997

    I am pleased to appear before the committee to discuss the status 
of the International Space Station, particularly, as you requested, our 
cooperative activities with Russia.
    I want to start with a little context. I think it's important to 
see where we are today in terms of where we've been.
    By 1993, we had spent over 10 years in the design and development 
of a space Station, having spent over $10.2 billion without producing a 
single piece of flight hardware. We faced other problems, such as cost 
growth and inefficiencies driven by a layered and fragmented management 
approach and multiple contractors with no prime contractor. Space 
Station had become associated with continuous redesigns and capability 
reductions, which were driven by fiscal constraints. However, these 
problems are by no means a negative reflection of the people working on 
the program today, or yesterday. The quality and commitment of the 
people supporting this program have been and continue to be 
outstanding.
    In 1993, under President Clinton's leadership, we were asked to 
redesign the Space Station one last time and to consider bringing in 
the Russians as partners. Our evaluation showed that it made sense 
then, and it makes sense now. The distinguished Charles Vest panel 
reconfirmed that an international partnership including the Russians 
was the right decision. We would gain enormously from the Russians' 
expertise, and it would give us critical redundancy in the functions of 
life support, attitude control, extravehicular activity and launch 
support. At the time, the only launch vehicle planned to service the 
Station was the Space Shuttle. Now, we have two operational launch 
systems with access to multiple launch vehicles. Other benefits of 
adding the Russians included: a significant increase in power and 
pressurized volume and early human habitation. It is also giving 
America the opportunity to learn about assembling a large, highly 
technical project in space and to learn from the only country in the 
world that has spent 10 continuous years in space on Mir.
    When the Russians joined the partnership, estimates were that $2 
billion dollars and approximately 18 months of schedule would be saved. 
We committed to building the Station within a level annual funding cap 
of $2.1 billion and to complete International Space Station assembly 
for $17.4 billion. So far, we have met these commitments and intend to 
continue to perform to them in the future.
    That's where we were in 1993, and those were some of the benefits 
that were considered when the Russians were invited to join the 
program.
    Before the Russians joined the ISS program, its biggest weakness 
was this: Apollo had Mercury and Gemini, where invaluable experience 
could be gained in areas including logistics, EVA and assembly. Space 
Station had no such precursor programs before we added the Shuttle-Mir 
flights. Without the Shuttle-Mir flights, building the Station would 
have been at significantly increased risk. In fact, the current Hubble 
mission will use techniques we learned from the Shuttle-Mir missions.
    The joint Shuttle-Mir missions are symbols of the benefits of U.S-
Russian cooperation, have provided tremendous concrete scientific and 
technical results. One of the key observations we have found in working 
with the Russians is that Shuttle science is task-oriented. We conduct 
science for two weeks at a time in space, and spend an enormous time in 
preparation. Hence, we have procedures developed to address specific 
tasks scheduled to be performed on a mission or which might occur in-
flight. The Russians cosmonauts train to be skill-oriented. The 
Russians have used their advantage in long-duration missions to learn 
effectively how to live and work in space. We are bringing the best 
aspects of both programs into the utilization and operations planned 
for the International Space Station.
    Through our work with the Russians, the U.S. has gained significant 
knowledge in a number of areas: We had never docked the quarter-
million-pound Shuttle with another large spacecraft at 17,000 m.p.h. 
and within a 600-pound docking force constraint. We have successfully 
demonstrated that the five-minute launch window will not impact our 
assembly schedule; the number of protein crystals which can be grown 
through conventional techniques has been expanded by 30 times; and we 
have demonstrated joint ground and mission control operations can work 
effectively and collaboratively.
    We started out in October, 1993, with a clean slate with a brand 
new partner. It's unbelievable that we have had five successful docking 
missions, one rendezvous

[[Page 19]]

mission, and learned all that we have. We never said this complex, 
precedent-setting project would be easy.
    We have also made significant progress in the development of 
International Space Station hardware and software. Since 1993, we've 
completed over 56% of the planned program, which has yielded over 
162,000 pounds of U.S. flight hardware. The program has been, and is, 
set on a steady course. As we enter our fourth year since the redesign, 
the program continues to perform within the annual funding cap of $2.1 
billion and the $17.4 billion completion estimate. We have accommodated 
the needs of our international partners, while maintaining our own U.S. 
objectives, commitments and major milestones.
    Early assembly flights are moving from qualification to integration 
activities. In a few short months we will be shipping flight hardware 
to the Kennedy Space Center where it will be readied for integration 
with the Shuttle. Likewise, the first element to be launched, the 
Functional Cargo Block (FGB), is on schedule to be shipped to the 
Baikonur cosmodrome in May in preparation for its launch. Given the 
breadth and complexity of this program, and experience seen in other 
major government development programs, we have demonstrated strong 
performance. We are literally less than a year from the start of on-
orbit assembly of an unprecedented orbital research facility. I am very 
proud of the NASA/Industry team. They have worked long hours and 
demonstrated a true commitment to the American people in delivering the 
International Space Station.
    We've also added capabilities. The ISS redesign in 1993 fixed a set 
of capabilities to a cost and schedule. Since that time, we have 
enhanced several of the capabilities within our existing program 
budget. While the science focus of the redesign was on life and 
microgravity sciences, we have continued to enhance the Station 
capabilities. The attached payload capability allows observing payloads 
the capability to view down at earth and up into deep space. One of the 
early attached payloads will be the Alpha Magnetic Spectrometer (AMS), 
proposed by Dr. Sam Ting, a Nobel laureate. The intent of the AMS 
experiment is to investigate dark matter and antimatter, in addition to 
making other astronomical measurements. The addition of an optical 
quality window to the US Lab also enhances the resources for observing 
experiments. In addition, the Centrifuge and its new dedicated module 
significantly increase the useful volume for research. This may also be 
further improved with the potential provision of an additional node by 
the Europeans. This new node will have room for four more research 
racks. We are also studying ways to dramatically improve the 
communications for the ISS to provide better access to and data from 
experiments.
    As we continue to develop the ISS, the research community continues 
to look at the ISS as a potential testbed for many systems and sensors, 
including free flying platforms. Although these capabilities were not 
specifically envisioned in 1993 we continue to enhance the potential of 
this research laboratory.
    The Russians are going through dramatic changes, unlike anything we 
have ever experienced. They went from totalitarianism to democracy 
overnight. From a controlled economy to an open one. They have been 
presented with serious challenges. They are struggling to meet their 
commitments under harrowing circumstances. Still, the Russian produced 
FGB is the most mature piece of hardware we have. And it's on time and 
on budget. Russian industry has demonstrated that they can deliver when 
adequate funding is provided.
    The funding difficulties experienced by our Russian partners have 
delayed production of the Service Module from April to December of 
1998. This has caused us to initiate contingency plans to ensure that 
we can continue the assembly process despite the delay of this key 
element. This plan includes an alternative to the Service Module should 
it fail to be delivered and we are examining ways to provide an interim 
solution that adds important redundancy and robustness to the Space 
Station before the Service Module arrives. This would provide assembly 
stability should the Service Module be delayed beyond its current 
assessed launch date of December 1998.
    NASA and Russian teams worked very hard throughout December and 
January to develop options for minimizing the impact of the SM delay 
and to protect the overall assembly schedule from any additional 
delays. This effort concluded that an Interim Control Module (ICM) 
would be required to provide redundancies to ISS capabilities for 
reboosting and attitude control, should the Russians have further 
delays in providing their contributions.
    We are presently considering two options for the ICM. The first 
makes use of U.S. hardware developed by the Naval Research Laboratory. 
The second uses the Russian module being developed independently by 
Khrunichev as a backup to the FGB module, called FGB 2. We are working 
vigorously on both options because we want to have the best information 
available if the decision to pursue the ICM is nec

[[Page 20]]

essary. Both options have advantages and disadvantages. NASA and 
Russian teams are now working technical details of the FGB 2's 
capability to meet NASA's requirements, and they will provide their 
recommendations to RSA General Director Koptev and me in late February. 
Given the recent information we have just received from the Russians 
during the Gore/Chernomyrdin Commission we will need time to validate 
and review these recommendations. This is not to say that the best 
path, given budgetary and schedule considerations, may be to adhere to 
the original schedule.
    For the long term, NASA and the Russian teams are also looking at 
using Russian-provided fuel tanks carried by the Shuttle to provide a 
refueling capability for the ISS. This option will make the ISS a more 
robust Station by providing the means to refuel by both Russian and 
American vehicles.
    To meet the late 1998 launch date for the SM, RSA needs to sign a 
number of subcontracts for critical long-lead items before it receives 
its first budget payment in late February. To cover this funding gap 
and to allow RSA to meet its schedule, NASA has negotiated a 
modification to the existing NASA/RSA contract to rephase milestones 
for the last long-duration Phase 2 missions to the Russian Mir space 
station. This will provide RSA a total of $20 million early in 1997. 
RSA has already met its first rephased milestone and received the first 
payment of $12 million on January 31. This is not new money, but is 
rephasing of committed funds from the existing NASA/RSA contracts. As 
agreed in the contract modification, RSA must still meet its original 
obligations for the Phase 1 missions. RSA also agreed to give NASA 
greater insight into SM development activities and to conduct a General 
Designer's Review for the SM in March, which NASA will attend.
    Updates to the assembly sequence through flight 7A, or the end of 
Phase 2, have been developed based on the above options and are being 
validated against information just received from the Russians. This is 
not a redesign. These sequences maintain the final launch of Phase 2, 
the launch of the U.S. Airlock in May 1999, within a month of the 
original baseline schedule. The remainder of the ISS assembly schedule 
in Phase 3 is still being reviewed. Of course, any proposed changes to 
the assembly sequence will be discussed in consultations with all of 
our Space Station partners. Final decisions will be approved by the 
Space Station Control Board.
    For the past 16 months, we have had questions regarding the Russian 
government's ability to provide steady and adequate funding for its 
contribution to the ISS. Time and again, we were told that the problem 
would be resolved. Last summer, at the highest level, Russian 
government officials said the lack of funding would be resolved. It 
didn't happen. We communicated all this to appropriate Congressional 
committees and worked steadily to develop options to mitigate the 
effects of inadequate Russian funding. Since then, your frustration has 
grown; my frustration has grown; as it became clear that the first 
Russian element, the Service Module, would not make its scheduled 
delivery date. We asked that Vice President Gore help to resolve this 
issue at the February meeting of the Gore/Chernomyrdin Commission.
    U.S.-Russian cooperation in space is a critical underpinning of the 
success of the U.S.-Russian Joint Commission On Economic and 
Technological Cooperation. At last week's Gore/Chernomyrdin Commission, 
Prime Minister Chemomyrdin talked to the Vice President about the 
tremendous benefit of the Shuttle-Mir program in providing a common 
thread between the two nations. He said millions of Russian citizens 
have seen how well Americans and Russians can work together in space, 
and he indicated the two countries have understood each other's 
problems and achieved mutually acceptable solutions.
    At the Commission, the Vice President led a series of discussions 
with the Russians. We had an opportunity to reiterate in the strongest 
of terms that they need to meet their commitments on the Service Module 
as a partner in the Space Station program. Prime Minister Chernomyrdin 
stated that Russian funding would begin to flow by the end of February 
to provide necessary funds to proceed with construction and that 
adequate funds were budgeted in 1997 to keep the Service Module on 
track. He further committed that the Service module would support a 
December launch date and challenged the Russian Space Agency to meet an 
accelerated October 1998 launch date.
    Now we have come to a critical juncture, a fork in the road. We now 
have a very specific commitment from the Russian government, citing 
specific amounts and dates. While I am cautiously optimistic that, this 
time, the commitment will result in funding; we will take action based 
only on observed performance, not on mere statements of intent. It is 
the only prudent course that NASA can take. I want to thank Chairman 
Sensenbrenner and his colleagues for their letter of support.
    Right now, the Russian Space Agency is waiting to receive funding 
by the end of February. It will take us some time to validate that the 
money has been released to the Russian Space Agency. We will then look 
to see if it has reached the prime

[[Page 21]]

contractors and sub-tier suppliers, with work being performed. If we 
can not validate through progress on the Service Module that money is 
flowing, we will take the steps necessary to pursue an alternative 
means to field the ISS. We want to work this out. That is our hope. I 
believe that with full Russian governmental funding, we will get back 
on track with minimal overall impact to the ISS. All of the other 
partners have experienced problems and we have worked through to 
successful resolutions. But if the money isn't flowing on time, we must 
move ahead with an alternate approach to protect the interest of the 
U.S. and other international partners.
    I commit to you that the International Space Station will be built. 
I believe Russia's will continue to be an important part of this 
international partnership. Let us not forget why we brought the 
Russians into the program. It is in the best interest of the American 
people--we could gain incredible scientific capabilities; we could 
develop cutting-edge technology; we could have the knowledge that 
Russia is focusing its technological expertise to benefit humanity and 
promote world peace.
    Yet we have to hold the Russians accountable for holding up their 
end of the bargain. And we are. The partnership has to be built on 
responsibility and integrity. NASA is committed to these principles. I 
look forward to the leadership and guidance of the distinguished 
members of this Committee. We all want the same thing for the future--
peace and cooperation, not fear and conflict. With your support, the 
International Space Station can be an important part of that. It can be 
a symbol and the reality of a new, hard-won partnership that broke all 
the rules of history to find a new course, a new way, for two former 
Cold War enemies and the world.

    Chairman Sensenbrenner. Thank you, Mr. Goldin.
    Ms. Smith?

   TESTIMONY OF MARCIA S. SMITH, SPECIALIST IN AEROSPACE AND 
  TELECOMMUNICATIONS POLICY, CONGRESSIONAL RESEARCH SERVICE, 
              LIBRARY OF CONGRESS, WASHINGTON, DC

    Ms. Smith. Thank you, Mr. Chairman.
    Chairman Sensenbrenner. Without objection, the full text of 
your statement will be included in the record.
    Ms. Smith. I was going to ask. Thank you. And let me add my 
congratulations on your becoming Chairman of the Committee. I 
very much look forward to working with you and with all the 
members of the Committee during the 105th Congress.
    As you know, the Congressional Research Service provides 
objective, nonpartisan analysis for Congress. We do not take 
positions on issues and we do not make recommendations.
    Our role is to assist you by analyzing issues and by 
identifying options for your consideration.
    I appreciate this opportunity to discuss Russia's role in 
the Space Station program.
    In 1993, President Clinton added Russia as another partner 
in the program. He foresaw benefits to the United States in 
foreign policy and NASA determined that it would also benefit 
the Space Station. The decision was made despite concerns, even 
then, that Russia might not be able to fulfill its commitments 
because of financial or political reasons.
    As the new design with Russia evolved, it became clear that 
the Space Station was dependent upon Russian hardware and 
services for a number of functions.
    These are described in my written statement.
    One is the Service Module, the third segment scheduled for 
launch, that will provide guidance, navigation and control and 
crew quarters. It is the focus of attention today because 
Russia has said it will be 8 months late.

[[Page 22]]

    To deal with the situation, NASA has three options--to 
maintain the launch schedule for the first two segments and 
hope the Service Module is ready no later than the end of 1998. 
Without it, the first two pieces would re-enter the atmosphere 
and be destroyed.
    NASA can either depend on recent assurances that Russia 
will provide the needed funding or pay Russia to build it. Or 
NASA can maintain the launch schedule and build an interim 
capability to keep the first two segments in orbit in case the 
Service Module is not ready in time.
    NASA is looking at two options, as Dr. Gibbons described, 
but neither would provide living quarters for the crew. Or NASA 
can delay the launch of the first two segments until the 
Service Module is close to completion, whenever that occurs.
    In focusing on near-term issues of coping with the Service 
Module delay, it is easy to lose sight of the long-term 
perspective. Adding an interim capability, the second option, 
so late in the process, increases technical risk to the overall 
program. It might lead to technical surprises later on that 
cost time and money to fix.
    As the trade publication, Space News, said recently, 
``design as you go is a philosophy certain to fail.''
    One of the complications in trying to achieve technical 
stability is knowing whether Russia will fulfill its commitment 
to provide not only the Service Module, but all of the other 
hardware and services that it's promised.
    Unfortunately, there is no clear answer as to whether 
Russia will come through.
    As has already been discussed, high-ranking Russian 
government officials made promises last year that were not 
kept. Last week, Prime Minister Chernomyrdin promised $100 
million by the end of this month and another $250 million by 
the end of the year.
    But will this promise be kept?
    In assessing the answer to that question, it seems prudent 
to bear in mind that for the past 3 years the Ministry of 
Finance has not transferred the full amount of funding 
allocated by Parliament to the Russian Space Agency. According 
to western and Russian sources, RSA received between 70 and 83 
percent of the allocated funding between 1994 and 1996. That 
and other indicators point to a country where space does not 
have a high priority.
    Considering Russia's economic situation, it simply may not 
be possible for them to allocate their resources to this 
activity. But Russia might fund some of what they promised. The 
problem is knowing what and when.
    This uncertainty presents quite a dilemma. Congress 
essentially has three options. Give Russia one more chance to 
live up to its promises. If the $100 million is released by the 
end of February and NASA is given access at the subcontractor 
level to monitor progress, another promise made last week, then 
the situation could be resolved, at least for now. Otherwise, 
the United States will have to reassess whether the benefits of 
Russian participation are still worth the risks. Or Congress 
can decide now that the Russians are not good partners and 
direct NASA to build the Space Station without them, or use 
them only as subcontractors. Or Congress can decide that Russia 
will not fulfill its commitments, that the Space

[[Page 23]]

Station cannot be built for an acceptable cost, and terminate 
the program.
    If Congress continues its support for the Space Station and 
Russia remains part of the program, issues like those 
surrounding the Service Module seem likely to arise again and 
again. The question may become how much NASA will need to pay 
Russian or American companies to build these capabilities and 
where the money will come from.
    If NASA must pay for capabilities another partner was 
expected to provide, it seems quite unlikely that the program 
can be completed on the current schedule without additional 
funds.
    Regardless of the schedule, however, the key to the 
ultimate success of the Space Station is a solid technical 
design with as few last-minute changes as possible.
    Thank you and I'll be happy to answer any questions you 
have.
    [The prepared statement of Ms. Smith follows:]

   RUSSIA'S PARTICIPATION IN THE INTERNATIONAL SPACE STATION PROGRAM

              TESTIMONY BEFORE THE HOUSE SCIENCE COMMITTEE

                           FEBRUARY 12, 1997

MARCIA S. SMITH, SPECIALIST IN AEROSPACE AND TELECOMMUNICATIONS POLICY, 
                     CONGRESSIONAL RESEARCH SERVICE

    Mr. Chairman, members of the committee, thank you for inviting me 
here today. As you know, the Congressional Research Service provides 
objective, non-partisan analysis for the Members and committees of 
Congress. We do not take positions on issues, or make recommendations 
on programs such as the space Station. Our role is to assist you by 
analyzing issues and identifying options for your consideration. I 
appreciate this opportunity to discuss one of the issues impacting 
NASA's space Station program today--Russia's role in the program.
    The space Station program formally began in 1984 when President 
Reagan directed NASA to build a space Station ``within a decade'' and 
invite other countries to join in the endeavor. In 1988, agreements 
were signed with the European Space Agency, Japan and Canada making 
them partners in the program. From 1984 to 1992, the space Station was 
redesigned several times, primarily due to rising costs. Many of the 
objectives envisioned for the space Station were postponed or 
eliminated because of cost, but the central purpose remains--creating a 
permanently-inhabited international scientific laboratory for research 
in near-zero gravity (``microgravity'') conditions. NASA calls it 
simply the International Space Station (ISS); it does not have an 
official name. The space Station will be taken into orbit in pieces by 
the space shuttle and other launch vehicles and assembled over a period 
of about five years.
    In 1993, responding to news of $1 billion in unexpected cost growth 
in the program, President Clinton ordered another redesign of the 
Station. As the redesign activity progressed, the President decided to 
invite Russia to become a partner as well (the benefits he envisaged 
are discussed below). The President's decision has been controversial 
from the beginning precisely because of the question of whether Russia 
could fulfill its commitments. Demonstrating its concern, Congress 
included language in the report accompanying NASA's FY1994 
appropriations bill (P.L. 103-124) approving Russia's participation as 
long as it would ``enhance and not enable'' the space Station.
    Nonetheless, it was clear almost immediately that Russia's role was 
enabling, not enhancing. That is, the space Station cannot be built as 
currently designed without Russia. Russia has promised to provide a 
number of modules, other hardware, and services, costing $3.5 billion 
according to Russian Space Agency Director Yuri Koptev. In summary, the 
hardware and services ``on the critical path'' are (see appendix for 
details):

<bullet> Guidance, navigation and control (GN&C), first using the FGB 
        module, and then the Service Module;

[[Page 24]]

<bullet> Crew quarters during most of the assembly phase, using the 
        Service Module;
<bullet> ``Roll'' control (part of keeping the Station oriented 
        correctly) during the initial phases of assembly, using the 
        Science Power Platform (SPP). Until the SPP is in place, either 
        Logistics Transfer Vehicles or Progress spacecraft would be 
        used;
<bullet> ``Reboost,'' to keep the Station at the proper altitude, using 
        Logistics Transfer Vehicles or Progress spacecraft; and
<bullet> Crew Return Vehicles, or ``lifeboats,'' using Soyuz 
        spacecraft.

    Russia has recently announced that the Service Module will be 8 
months late. Since this is the first of the Russian elements to be paid 
for by Russia itself, many are worried that this portends trouble not 
only for the Service Module, but for other promised Russian hardware 
and services.
    If the space Station were to be built without Russia, it would have 
to be redesigned to develop replacements for these capabilities. Such a 
redesign would impact schedule and cost. The 1993 redesign of the 
Station was the 6th major redesign since the program began in 1984. 
When NASA committed to building this design for a specified cost and 
schedule, the agency knew it had a lot riding on its ability to fulfill 
its promises. (Cost is estimated at $17.4 billion from FY1994 through 
June 2002. The estimate does not include $11.4 billion appropriated 
prior to FY1994, launch costs, or operational costs. Spending is capped 
at $2.1 billion a year. The schedule calls for first element launch in 
November 1997 and completion of assembly in June 2002.) Understandably, 
NASA is worried that more schedule slips or rising costs would lend 
support to those who have sought for many years to terminate the 
program. In the short run, NASA therefore is anxious to find solutions 
to the Russian problems and keep the design and schedule as intact as 
possible.
    American taxpayers already have spent over $18 billion on the space 
Station. By the time construction is completed, another $10 billion 
will be spent, excluding launch costs. In the long term, certainly what 
NASA and other space Station supporters want most is to ensure that the 
taxpayers get the best space Station possible for that money. The issue 
is how to build the best space Station technically, while meeting the 
political challenges of having Russia as a partner, maintaining the 
prescribed schedule, and staying within the spending caps.

Options for Coping with the Service Module Delay

    Russia's Service Module is the focus of attention today because it 
is the first Russian element that Russia is expected to pay for itself. 
All the partners are expected to pay for their own hardware; there is 
no exchange of funds among the United States, Europe, Canada or Japan. 
NASA made an exception for the first module built by Russia, the FGB, 
for which NASA paid $215 million ($190 through a Boeing-Khrunichev 
contract, $25 million from NASA directly). NASA also is paying Russia 
$472 million for space Station cooperation (including the $25 million 
direct NASA funding for the FGB; most of the rest is for NASA's use of 
Russia's Mir space Station). All other hardware and services promised 
by Russia for the International Space Station are supposed to be paid 
for by Russia.
    The Service Module is a critical element in the space Station's 
construction, providing guidance, navigation, and control (GN&C), and 
crew quarters. Scheduled as the third launch in the space Station's 
assembly sequence, Russia recently announced that it will be 8 months 
late because of funding shortfalls. As currently configured, other 
launches would have to wait until the Service Module arrives.
    As noted, NASA is anxious to maintain the schedule for the program, 
proceeding with the ``first element launch'' (FEL) in November 1997. 
This launch would place the FGB module in orbit. This would be followed 
a month later with the launch of a U.S. segment called a ``Node'' 
(which joins together other parts of the space Station). The Service 
Module was to be launched next, in April 1998. Now Russia says it will 
be ready in the October-December time range. Without the Service 
Module, the FGB can keep itself and the Node in orbit for approximately 
435 days; after that, the two pieces would reenter Earth's atmosphere 
and be destroyed. With regard to this near-term issue, NASA has the 
following options:

<bullet> Maintain the launch schedule for the FGB and Node and hope the 
        Service Module is ready no later than December 1998. NASA can 
        either depend on recent Russian assurances that the Russian 
        government will provide the needed funding (see below), or pay 
        Russia to build it as NASA paid for the FGB.
<bullet> Maintain the launch schedule for the FGB and Node and build an 
        interim capability to keep those two segments in orbit in case 
        the Service Module is not ready by the end of 1998. NASA is 
        looking at two options today: a U.S.-built Interim Control 
        Module, or a Russian-built ``FGB 2'' (based on the FGB design, 
        but with upgraded capabilities). NASA would pay for either 
        option. Either reportedly

[[Page 25]]

        could be ready sometime in the summer or fall of 1998. NASA 
        asserts that the Service Module could be added at a later time, 
        or not at all.

    The ``interim capability'' replaces only the GN&C function. Neither 
the ICM nor the FGB 2 provides living quarters for the crew. Without 
the Service Module, crews would not be able to live aboard the space 
Station until the U.S. habitation module is launched in 2002. NASA is 
contemplating modifying the U.S. laboratory module, scheduled for 
launch in December 1998, to enable it to accommodate crew members if it 
is clear the Service Module would be very late, or not available at 
all. This would require redesigning the laboratory module, and reducing 
the amount of science that could be conducted.
    If NASA chooses to pay Russia to build the FGB 2, an option would 
be delaying the first launch until FGB 2 is ready and substituting it 
for the FGB. Conceptually, at least, FGB 2 is much more capable than 
the FGB. After launching the FGB 2, NASA could proceed with the Node, 
the Service Module, and subsequent launches. If desired, the FGB could 
be retrofitted as a Logistics Transfer Vehicle.

<bullet> Delay the launch of the FGB and Node until the Service Module 
        is close to completion, whenever that occurs. No interim 
        capability would be needed, but schedule delays and storage 
        costs would be incurred.

The Long-Term Perspective

    In focusing on the near-term questions about the Service Module, it 
is easy to lose sight of the long-term perspective. The key to the 
space Station's ultimate success is technical stability, something the 
program lacks today. Even though the first component of the space 
Station is only 10 months away from launch, it is difficult to know 
from day to day what the design will be during the initial stages of 
assembly. The discussions of an Interim Control Module or an FGB 2 have 
suddenly surfaced to cope with Russian delays. Although both are based 
on existing designs, they are still only concepts. Analysis of these 
alternatives has been done in a very short period of time, raising 
questions about thoroughness. Design immaturity can lead to technical 
surprises that cost time and money to fix later on.
    The ``interim capability'' is only one example of the technical 
confusion surrounding the apace Station today. For example, a little 
over a year ago, there was nothing called a Logistics Transfer Vehicle 
(LTV). It was born, conceptually, about this time last year because the 
Russians admitted that they would not be able to supply both their own 
space Station, Mir, and the new International Space Station with 
``reboost'' services to keep the space Stations in orbit. They use a 
spacecraft called Progress M for reboosting Mir, and this was intended 
for use with ISS as well. However, they conceded that they could not 
build enough Progress-type spacecraft and associated launch vehicles to 
service two space stations at once. Because they were unable to fulfill 
one part of their promise, they promised something else.
    As 1996 progressed, it became clear that another Russian 
capability, the Science Power Platform, would not be ready on time. One 
of its functions is roll control--related to keeping the space Station 
properly oriented. NASA decided it could use the still-conceptual LTV 
to fulfill this function until the Science Power Platform was ready. At 
last report, NASA was doubtful that the Russians would proceed with 
building LTVs, however, leaving them with the need to look for 
alternatives, one of which is using yet another proposed Russian 
contribution, the FGB 2 module.
    What is troubling is not simply that the space Station is so 
dependent on Russia that even solutions to coping with Russian delays 
mean relying on some other Russian contribution, but that these 
technical issues are still to be resolved so close to launch.
    NASA and its partners are only at the beginning phases of building 
this space Station. Construction starts in November 1997 but does not 
end until assembly is completed in June 2002 (and NASA recently 
announced that the completion date has slipped to ``late 2002 or early 
2003,'' although the agency calls June 2002 the ``U.S.'' assembly 
complete date). With so much technical confusion in these early stages 
of the program, questions arise about the maturity of the entire 
design. As Space News, a leading trade publication, stated in a recent 
editorial, ``Design as you go is a philosophy certain to fail.'' 
(January 20-26, 1997, p. 14.)

Russian Promises

    Just as there are uncertainties about whether Russia can provide 
early elements such as the Service Module, these questions will remain 
for all the other hardware and services it agreed to provide. 
Therefore, Russia's participation in the program adds risk to the 
program's schedule and cost.
    NASA officials report that during his meeting with Vice President 
Gore last week, Russian Prime Minister Chernomyrdin verbally committed 
to providing $100 million by the end of this month, and another $250 
million by the end of the year, for build

[[Page 26]]

ing the Service Module and other components of the space Station. The 
difficulty is assessing whether the Russian government will meet this 
promise any better than it did last year. In January 1996, then-First 
Deputy Prime Minister Oleg Soskovets assured you, Mr. Chairman, and 
Representative Lewis, that adequate funding would be forthcoming for 
the Service Module. Although $10 million was provided to the Russian 
company building the Service Module soon thereafter, little or nothing 
followed. When it became apparent that funding had stopped, an exchange 
of letters in March and April between Vice President Gore and Prime 
Minister Chernomyrdin led to further assurances. Nonetheless, little 
funding flowed, resulting in the schedule delay NASA is coping with 
today.
    The Russian Duma (one of its houses of Parliament) reportedly has 
singled out the space Station program as a separate line item in the 
1997 Russian budget. If accurate, this signals that at least one part 
of the Russian government is supportive of the program. However, it is 
the Ministry of Finance, not the Duma, that disperses funding. 
According to the American consulting firm, ANSER, in 1994, the Ministry 
gave the Russian Space Agency (RSA) only 70% of what the Duma had 
allocated for it. In 1995, ANSER reported that RSA received 78% of its 
allocation. RSA Director Yuri Koptev was quoted at the end of 1996 as 
saying that his agency was allocated 3 trillion rubles ($535 million), 
but did not receive 600 billion rubles ($109 million) of that amount. 
(Aviation Week and Space Technology, Jan. 6, 1997, p. 26). This would 
mean RSA received approximately 83% of its allocation. Clearly, 
allocations by the Duma do not necessarily translate into actual 
funding.

Balancing Costs and Benefits of Russian Participation

    President Clinton chose to bring Russia into the space Station 
program primarily for foreign policy reasons. The foreign policy 
benefits included providing U.S. support to Russia in its transition to 
democracy and a market economy, encouraging Russian scientists and 
engineers to work on ``peaceful'' projects rather than selling their 
talents to other, possibly hostile, countries, and obtaining Russia's 
agreement to abide by the Missile Technology Control Regime (to stop 
the proliferation of ballistic missile technology). The U.S. decision 
to pay Russia $400 million (FY1994-1997) for space Station cooperation 
was related to Russia's agreement to restructure a contract with India 
to which the United States objected because of proliferation concerns. 
Russia claimed at the time that restructuring the contract would cost 
them $400 million in lost sales, the same amount the United States 
subsequently agreed to pay them. (The money is paid through a contract 
between NASA and the Russian Space Agency. NASA later increased the 
amount of the contract by $72 million.) Also, merging the U.S. and 
Russian space Station programs was viewed by the Clinton Administration 
as symbolic of the end of the Cold War.
    According to NASA, adding Russia as a partner also had benefits for 
the space Station program. NASA asserts that Russia's contributions 
create a more capable space Station (with 25% more usable volume, 42.5 
kilowatts more power, and 6 crew instead of 4). Also, NASA says the 
Station will be ready 1 year sooner (originally the estimate was 2 
years sooner), and cost $1.5-2 billion less (originally, the estimate 
of savings was $4 billion).
    These benefits were deemed to be worth the risks that Russia would 
not have the financial ability to fulfill its commitment, or that the 
political relationship between the United States and Russia would 
change, and Russia might withdraw from or be asked to leave the 
program. With the political relationship stable, the issue today is 
whether the Russian government will choose to spend its scarce 
resources on the space Station program.

Options for Long-Term Russian Involvement

    The following options are available for addressing the issue of 
Russian involvement in the space Station program.

<bullet> Give Russia another chance to demonstrate that it is serious 
        about meeting its commitments. It should be clear in the next 
        two months or so whether Mr. Chemomyrdin intends to keep his 
        commitment this time. If the $100 million does not flow from 
        the government to the Russian contractors and subcontractors by 
        the end of February, or if it stops flowing after a month or 
        two, that will be a clear sign that nothing has changed. NASA 
        asked for and received permission from the Russian Space Agency 
        to have NASA or Boeing people on site at the subcontractor 
        level to monitor the progress of construction of the Service 
        Module. If this access is not provided, that would be another 
        sign that Russia may not fulfill its commitment. At that point, 
        NASA, the White House and Congress would need to decide whether 
        the benefits of having Russia as a partner continue to be worth 
        the risks. The disadvantage of this choice is that if Russia

[[Page 27]]

        does not deliver, it will further delay the space Station 
        schedule, increasing costs to the United States.
Pending demonstration of Russian performance, the United States may 
        wish to delay signing the revised Intergovernmental Agreement, 
        and the final Memorandum of Understanding between NASA and the 
        Russian Space Agency (documents which detail what each partner 
        in the program agrees to do and gets in exchange). Signing is 
        currently anticipated in the summer of 1997.
<bullet> Direct NASA to build the space Station without Russia as a 
        partner and give NASA the resources it needs (money and time) 
        to build replacement hardware and services. Congress chose not 
        to force the issue of the ``enhance and not enable'' language 
        in the FY1994 appropriations bill, but it could decide to 
        include such language again in legislation. Congress could 
        leave open the option for NASA to contract with Russian 
        companies for specific hardware or services, or specify that 
        American companies be used. The problems with this approach are 
        clear, since the White House remains committed to maintaining 
        Russia as a partner. Legislation directing Russia to be 
        eliminated as a partner could raise separation of powers issues 
        regarding the President's foreign policy prerogatives.
<bullet> Decide that Russia cannot fulfill its commitments, that the 
        space Station program cannot be completed for a reasonable cost 
        to the taxpayer, and terminate the program. Congress has voted 
        15 times specifically on the question of whether to terminate 
        the space Station, and the program has survived each time. The 
        most recent votes have had wide margins in support of the 
        Station. Whether the possibility that Russia will not fulfill 
        its obligations, coupled with other challenges the program is 
        facing, is sufficient to reverse that margin is unclear.

Conclusion

    Russia is technically capable of meeting its commitments to the 
space Station program. The question is whether the Russian government 
will provide the requisite funding. Today, Russia is having difficulty 
supporting its own space Station, Mir, despite substantial payments 
from the United States and European countries for keeping their 
astronauts aboard Mir. Resupply flights have been delayed or canceled 
(only three were flown in 1996 instead of the usual five) and crew 
replacement flights delayed chiefly because no launch vehicles were 
available. Other signs in the Russian space program (such as the 
decrease in total number of launches) point to the reality that space 
activities do not have a high priority in Russia.
    Considering the economic situation in Russia and the onerous 
choices facing the Russian government, it simply may not be possible 
for them to allocate their resources to this activity. The program 
brings national prestige to Russia, highlighting their 26 years of 
experience in operating space Stations, and is a means for supporting 
Russia's aerospace industry. Still, a country worried about the 
deterioration of systems for controlling their nuclear weapons, feeding 
and clothing their military personnel, and paying pensions, might well 
decide that space Stations are a lesser priority.
    The Clinton Administration clearly remains committed to keeping 
Russia as a partner in the program, despite the doubts that they will 
be able to pay for all their promised hardware and services. Unless the 
economic situation in Russia significantly changes for the better, it 
can be expected that issues like those surrounding the Service Module 
could arise again and again. To date, Congress has remained committed 
to building the space Station, defeating repeated attempts to terminate 
the program. If this support continues, and Congress wants the best 
space Station built for the money invested, the question may become how 
much NASA will need to pay Russian or American companies to build these 
capabilities, and where the money will come from. NASA already is 
struggling to keep the space Station within budget and on schedule. If 
NASA is required to pay for capabilities that another partner was 
expected to provide, it seems quite unlikely that the program can 
completed on the current schedule without additional funds. Regardless 
of the schedule, the key to the ultimate success of the space Station 
is a solid technical design, with as few last minute changes as 
possible.


[[Page 28]]


                                APPENDIX

              RUSSIAN SPACE STATION ELEMENTS: MIR AND ISS

                       MIR SPACE STATION COMPLEX

    Russia is currently operating its 7th successful space Station, 
Mir. U.S. astronauts began spending several-month-long tours of duty 
aboard Mir beginning in 1995. Today, they rotate on 4-6 month 
schedules, arriving and departing on the U.S. space shuttle. The Mir 
complex, illustrated on the next page, is comprised of 6 primary 
modules:

<bullet> Mir core module. The first module launched (1986), this is the 
        central core of the space Station containing many of the 
        control systems for the complex as a whole and crew quarters.
<bullet> Kvant (often called Kvant-1 in the West). The second module 
        (1987), about half the size of the core module, containing 
        scientific equipment and more control systems for the complex 
        (such as some of the gyrodynes for maintaining the space 
        Station's orientation, or ``attitude'').
<bullet> Kvant-2. The third module (1989), about the same size as the 
        core module, containing more gyrodynes and other equipment for 
        the crew and space Station operations, with an extra large 
        hatch allowing the crew easier access to the outside of the 
        Station during spacewalks.
<bullet> Kristall. The fourth module (1990), about the same size as the 
        core module, containing scientific equipment, primarily for 
        materials processing experiments. An extra docking port is 
        located at the end of Kristall, to which the U.S. shuttle 
        docked in June 1995. On the next shuttle-Mir docking (November 
        1995) a Russian-built Docking Module was added to facilitate 
        future dockings.
<bullet> Spektr. The fifth module (1995) carrying U.S. experiments to 
        be conducted by American astronauts during their visits to Mir, 
        and other scientific equipment.
<bullet> Priroda. The final module (1996) carrying more U.S. 
        experiments, and Russian experiments for remote sensing of the 
        Earth.

    Soyuz-II spacecraft are used for transporting crews to and from 
Mir, and one is always docked with the Mir complex to allow the crew an 
emergency escape route. A Progress-M spacecraft is usually docked at 
another port having delivered cargo and fuel to the space Station. It 
also is used to reboost the Station, and for trash disposal. Once it 
undocks from the space Station, it burns up during reentry through the 
Earth's atmosphere, although some versions have a small section that 
can survive reentry and return the results of scientific experiments to 
the ground.

[[Page 29]]

                                 CRS-10

[GRAPHIC] [TIFF OMITTED] T8882TX.029


[[Page 30]]


                      INTERNATIONAL SPACE STATION

    The Russians agreed to provide the following hardware and services 
for the ISS (illustrated below). Russia is said to be ``on the critical 
path'' because without some of its hardware and services, the Station 
cannot be built and operated as currently designed. Items shown with 
check marks (<radical>) are on the critical path. If Russia did not 
provide them, NASA would have to build replacement capabilities.

                                HARDWARE

<radical><bullet> FGB Module (sometimes called the FGB Tug, or FGB 
        Energy Block). This is scheduled to be the first section of the 
        space Station launched (November 1997) and would provide 
        guidance, navigation and control (GN&C) of the Station for the 
        first 5 months (until the Service Module is launched). After 
        that, its primary use would be fuel storage. FGB is being built 
        under a contract between Boeing and Russia's Khrunichev for 
        $215 million ($190 million in the Boeing contract, $25 million 
        from NASA). A modified version of this module, called FGB 2, is 
        one proposal for an interim control capability if the Service 
        Module is not ready on time. It would have advanced avionics 
        and refuelable exterior fuel tanks.
<radical><bullet> Service Module. Similar to the Mir core module (and 
        sometimes called Mir II by the Russians), this had been 
        scheduled for launch in April 1998, but the Russians now say it 
        will be delayed 8 months. It would provide living quarters for 
        the crew during most of the assembly period, until the U.S. 
        habitation module is launched in February 2002. It also would 
        be used for guidance, navigation and control functions instead 
        of the FGB Module.
<radical><bullet> Science Power Platform. Originally, this 
        telescoping, pressurized mast would have housed gyrodynes for 
        controlling the space Station's orientation (``attitude''), and 
        solar arrays for generating electrical power. The gyrodynes 
        were subsequently removed (U.S. gyros will be used instead), 
        although the SPP would still provide ``roll control'', one 
        element of attitude control. Until the SPP is available, NASA 
        plans to use other Russian spacecraft for roll control (see 
        below). The solar arrays are the major feature of the SPP 
        today, providing electricity for the Russian modules.
<radical><bullet> Crew Return Vehicle. Russian Soyuz spacecraft would 
        be used as crew return vehicles (``lifeboats'') in the event of 
        an emergency through 2002. With an orbital lifetime of only 6 
        months, they have to be replaced regularly. During most of the 
        assembly phase, only 1 Soyuz would be attached to the Station, 
        limiting occupancy to 3 crew members (the maximum Soyuz can 
        carry). In 2002, a second Soyuz would be docked, allowing 6 
        crew members to remain aboard the Station. NASA is considering 
        options for a new CRV (perhaps built by the United States or 
        Europe) for later years. NASA is paying Russia $42 million to 
        modify Soyuz so it can accommodate more of the U.S. astronaut 
        corps who are too tall or too short to fly in the existing 
        version (about half of the astronaut corps).
<bullet> Docking Modules. The Universal Docking Module, Docking 
        Compartment, and Docking and Stowage Module.
<bullet> Research Modules. The Russians have been planning to build 
        three scientific research modules, although there are 
        indications they may reduce that number.
<bullet> Life Support Module. Another module providing life support for 
        crews which would include closed-loop air and water systems.

[[Page 31]]

                                SERVICES

<radical><bullet> Reboost. Friction with the Earth's atmosphere causes 
        objects in orbit to slow down and reenter if they are not 
        ``reboosted'' periodically. Russia is expected to provide the 
        spacecraft to reboost ISS. Today, Russia uses a spacecraft 
        called Progress M to reboost Mir. A new version of Progress 
        (Progress M-2) was to be developed, capable of carrying more 
        fuel than the existing version. As part of the 1996 revisions, 
        Russia instead said it would build a cargo version of the FGB 
        module, called the Logistics Transfer Vehicle (LTV), which 
        would be even larger than Progress M-2. Russia said it would be 
        unable to build and launch sufficient Progress vehicles during 
        the late 1990s when the Mir space Station is still operational 
        and ISS is being built. LTVs were to be the solution to that 
        problem, although there are questions as to whether Russia 
        will, in fact, build them. LTVs also would be used for roll 
        control (see below) until the Science Power Platform is 
        available.
<radical><bullet> Roll Control. The space Station's orientation in 
        space must be controlled in three axes: pitch, yaw and roll. 
        Initially, roll control is to be performed either by Progress 
        spacecraft, or by the LTV. Later, it would be performed by the 
        Science Power Platform until U.S. control moment gyros (CMGs) 
        are launched. Once the CMGs are available, the Russian roll 
        control capabilities would be needed whenever the CMGs must be 
        taken off-line for servicing.
<radical><bullet> Launch Services. Russia is expected to provide a 
        launch for the U.S.-owned, Russian-built FGB Module at no cost 
        to NASA. All Russian-owned hardware and Russian-provided 
        services (such as reboost) were to be launched by the Russians 
        at their own expense, however NASA subsequently agreed to 
        launch the Science Power Platform (requiring two shuttle 
        launches).

[[Page 32]]

                                 CRS-13

[GRAPHIC] [TIFF OMITTED] T8882TX.032


[[Page 33]]


                               BIOGRAPHY

                            MARCIA S. SMITH

    Marcia Smith is a Specialist in Aerospace and Telecommunications 
Policy for the Science Policy Research Division of the Congressional 
Research Service, Library of Congress, Washington, D.C. She has been at 
CRS since 1975, serving as a policy analyst for the Members and 
committees of the U.S. Congress on matters concerning U.S. and foreign 
military and civilian space activities, and on telecommunications 
issues (and formerly on nuclear energy). She was Section Head for Space 
and Defense Technologies from 1987-1991, and Section Head for Energy, 
Aerospace and Transportation Technologies from 1984-1985.
    From 1985-1986, Ms. Smith took a leave of absence to serve as 
Executive Director of the U.S. National Commission on Space. The 
Commission, created by Congress and its members appointed by the 
President, developed long term (50 year) goals for the civilian space 
program under the chairmanship of (the late) former NASA Administrator 
Thomas Paine. The Commission published its results in the report, 
Pioneering the Space Frontier.
    A graduate of Syracuse University, Ms. Smith is the author or co-
author of more than 160 reports and articles on space, nuclear energy, 
and telecommunications. Previously she worked in the Washington office 
of the American Institute of Aeronautics and Astronautics.
    Ms. Smith is a Trustee of the International Academy of Astronautics 
(and co-chairs the Space Activities and Society Committee, and is a 
member of the International Space Policies and Plans Committee and the 
Scientific-Legal Liaison Committee). She is a member of the Committee 
on Human Exploration (CHEX) of the U.S. National Academy of Sciences' 
Space Studies Board (1992-1993, 1996- ). She is a Fellow of the 
American Institute of Aeronautics and Astronautics (AIAA). She serves 
on AIAA's Ethical Conduct Panel, and the International Activities 
Committee; was a member of the International Space Year Committee 
(1989-1992), the Public Policy Committee (1982-1989) and the Space 
Systems Technical Committee (1986-1989); was an AIAA Distinguished 
Lecturer (1983-1988); and was a member of the Council of AIAA's 
National Capital Section (1994-1996). She is a member of the Kettering 
Group of space observers. She is a Fellow of the British Interplanetary 
Society. She is a member of the Board of Directors of the International 
Institute of Space Law (IISL) and of the Association of U.S. Members of 
the IISL. She was a founder of Women in Aerospace, was its President 
(1987) and member of its Board of Directors (1984-1990), and is an 
Emeritus Member. She was President of the American Astronautical 
Society (1985-1986), on its Board of Directors (1982-1985), and 
Executive Committee (1982-1987, 1988-1989). She is a Life Member of the 
New York Academy of Sciences and the Washington Academy of Sciences 
(Board of Directors, 1988-1989). She is a member of Sigma Xi (the 
honorary scientific research society). Ms. Smith serves on the 
editorial boards of the journals Space Policy and Space Forum, and is a 
contributing editor for the Smithsonian Institution's Air & Space 
magazine. She is listed in several ``Who's Who'' directories, including 
``Who's Who in the World,'' ``Who's Who of American Women,'' and 
``American Men and Women of Science.''
    Ms. Smith is the daughter of Sherman K. Smith and the late Shirley 
(Schafer) Smith. Born on February 22, 1951 in Greenfeld, Massachusetts, 
she now resides in Arlington, Virginia.

    Chairman Sensenbrenner. Thank you very much, Ms. Smith.
    Ladies and gentlemen, as you know, I spent a considerable 
amount of time on Russian participation in the Space Station 
since it was announced by the President in 1993. I think I'm 
probably less patient than either you, Mr. Gibbons, or you, Mr. 
Goldin.
    We got some real nice words from Prime Minister 
Chernomyrdin when he was in town. That's not the first time he 
made these promises. He made them to Vice President Gore in 
April of last year. In July of last year, when the Gore-
Chernomyrdin Commission met in Moscow, there was a timeline 
that was signed off by the Vice President, the Prime Minister, 
Mr. Goldin, and Mr. Koptev that the Russians broke as early as 
November, in not providing adequate funding.

[[Page 34]]

    My question of you, Dr. Gibbons, and you, Mr. Goldin, is 
were there any agreements made at the Gore-Chernomyrdin 
Commission meeting of how the Russians' role in the Space 
Station partnership would be reduced if we have the third 
default of promises that have been made by Mr. Chernomyrdin to 
the Vice President?
    Mr. Gibbons. Some of the conversation between the Prime 
Minister and Vice President was private conversation, and so I 
can't report to you on that discussion, except that I believe 
that the Vice President made it quite clear, first of all, of 
our continuing commitment to pursue this international venture 
and to have Russia in there with us as a much desired 
alternative to other paths that the Russians could have taken 
had they not taken this one.
    Chairman Sensenbrenner. Well, Mr. Gibbons, we've heard that 
before and on May 9th of last year, I received a letter from 
the Vice President that says, in part, in response, the Prime 
Minister has fully--excuse me--has firmly pledged that Russia 
will meet its commitments to the ISS program in full. He 
confirmed that he has given the necessary instructions to 
ensure timely financing of Russian participation in the ISS 
program. I have subsequently learned that the Russian 
government has published a decree allocating additional funds 
to the Russian Space Agency for work on the ISS.
    Now, that was before strike one occurred. This was a matter 
of enough concern so that at the July 1996 meeting in Moscow, 
the Vice President got and extracted the piece of paper that 
was signed by the four participants establishing the timeline. 
And they defaulted on that.
    Now I guess my question is, if these promises are as 
worthless as the earlier promises the Russian government has 
given to the Vice President, do we proceed right away in 
building an alternative plan? Do we have to go back to the 
Russians and talk to them some more?
    What's the Russian role going to be if they fink out on 
their promises that have been made to the Vice President yet a 
third time?
    Mr. Gibbons. If my memory serves me correctly, and 
sometimes it does not, Mr. Chairman, but I believe that 
following that exchange with the Vice President last year, the 
Russian government did provide funds for the Fiscal 1996 
budget.
    What we've run into is the problem as they move into 1997. 
And as I think you correctly point out, we seem to be back at 
square one, except we're a year later and obviously, the 
funding has gone down the road with us.
    It's my impression that this time is a different time from 
last year, in that the question is much more specific. We're up 
against a very clearly recognized time window, measured in 
weeks, not many months, and we're talking about very specific 
dollars with Mr. Chernomyrdin, which we weren't last time. And 
the promise has been made in terms of specific dollars with a 
decree, an action by the Duma, and transfer of funds which we 
can monitor here directly here in the coming couple of weeks.
    Chairman Sensenbrenner. Well, either we've heard that 
before or we haven't, in which case we've lost a year because 
the Russians were not pinned down.

[[Page 35]]

    I guess what you're telling me is that there is no plan 
that the Administration and NASA has on how we proceed 
immediately after another Russian default, if that occurs.
    Mr. Gibbons. I would prefer to pass to Dan Goldin that 
question.
    Chairman Sensenbrenner. Mr. Goldin?
    Mr. Gibbons. And also to say as I turn over the microphone 
that I think that there are some things in the negotiation that 
I'm not sure we want to talk about in public right at this very 
moment.
    But let me turn it over to Dan.
    Chairman Sensenbrenner. Mr. Goldin?
    Mr. Goldin. We have a very specific plan that we have been 
working on. It has two or three possibilities.
    First, we have initiated an activity with the Naval 
Research Lab. They have held a design review on an approach 
where we would have what we call an Interim Control Module 
available for launch. I believe the latest date is August of 
1998.
    This module would not be reusable because we could not 
refuel it and it would give us a capacity for building the 
Space Station and then we could launch a refuelable propulsion 
module about a year later.
    That propulsion module could be built either by the Naval 
Research Lab or NASA Marshall, or some combination of those two 
organizations.
    So that is one of the paths that we are moving down. In 
fact, at the end of this month, we are prepared to meet with 
that organization and make a decision, go or no-go.
    In parallel with that, we are looking at another 
alternative that would be built in Russia with a direct 
contract, just like we had on the FGB. This is called the FGB2 
option. And we are working with the Russian engineers at 
Khrunichev and the Russian Space Agency to define that.
    We will be holding a meeting late this month with the 
Russians. They will be coming back here to review that.
    We will be moving down and we will take a choice of the 
Russian approach or the Naval Research approach. We have to 
look at the technical approach, the schedule, and the costs 
because those are always very crucial facts. And other issues 
of confidence.
    We will then take that decision and we will be proceeding 
with this approach and we will continue with this approach 
until we have such confidence that the funding is proceeding 
with the Service Module.
    If it proceeds, I think we then have a choice to 
discontinue the funds or we could decide to just keep on going 
and have a guaranteed reserve.
    Chairman Sensenbrenner. Okay. My time has expired. The 
gentleman from California, Mr. Brown?
    Mr. Brown of California. Thank you, Mr. Chairman. I have no 
questions at this time
    Chairman Sensenbrenner. The gentleman from California, Mr. 
Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    First of all, let me note, I have been a supporter of 
having a relationship, a strong relationship with the former 
Soviet Union, now Russia, in the space program. And I think it 
made every sense to

[[Page 36]]

have some type of cooperative effort with them that would put 
their scientists to work building technology and building 
relationships with the United States and with the western 
world, rather than perhaps having their scientific talents 
being put to use by other countries that might not have such 
friendly interests towards the United States.
    But with that said, it seems to me that the challenge we're 
talking about today is not just a failure of the Russians to 
meet their commitments. Our vulnerability in the Space Station 
seems to represent a failure in our strategy of how we were and 
how we should be working with a country, a developing country, 
like Russia. And this fatally flawed approach to working with 
the Russians has made us vulnerable.
    I think it's made the whole project, the Space Station 
project, vulnerable. Let me sort of get into what I mean in the 
form of questions.
    Dr. Gibbons, you mentioned that we have had a cooperative 
effort, for example, with the Russians in terms of Mir. And you 
cited that as an example of success.
    Correct me if I'm wrong, but isn't the situation withMir--
we are providing money to them sort of as contractors in that 
Mir cooperative effort, Mir-Shuttle cooperative effort.
    Is that correct?
    Mr. Gibbons. Yes, we are providing some funds on this 
because we feel it's the best way, the cheapest way and the 
most effective way to obtain certain kinds of information.
    Mr. Rohrabacher. And a more certain way. It seems to me 
that when we're dealing with the Russians, especially with 
Russian companies that maybe were part of the Russian 
government during the communist era, but now are struggling to 
become independent during the noncommunist era, when we're 
dealing with them as someone who we have a contract with, we 
seem to have success.
    But when we're depending on a relationship between the 
Russian government and our government as partners, it doesn't 
seem to be as successful.
    And if I could zero in on this just by saying, and Dan, you 
mentioned that the Russians have expertise and a lot of things 
that we can use.
    It doesn't necessarily flow from that that we should have 
an agreement with the Russian government to work with them in a 
cooperative effort that costs the Russians money. If they have 
expertise or things that they can contribute to the Station, 
and as was just mentioned, we can as an alternative pay for 
that.
    Well, perhaps we should have just paid for it all along 
because they've tended to honor their contracts. What they 
haven't done is pony up the money that they have agreed to 
spend because Russia, as we all know, is an economic basket 
case.
    So perhaps we should start dealing with the Russians in a 
way that can be successful, in a way that does not require them 
to pony up money.
    If we end up asking them to come up with a billion dollars, 
that's just going to weaken their economy even more. They don't 
have that money. No wonder they're not giving it to their 
people over in the space works.

[[Page 37]]

    My suggestion is, and please, first of all, correct me if 
my premises are wrong. And number two, it would lead me to 
conclude we should not--now that they've made the agreement 
we're depending on, we should not let them renege. But if we're 
going to give them some money, let's buy some of the expertise 
or some of the scientific items they have of ours. Let's buy 
them. Let's give them money for something else of value so they 
can meet their commitments and in the future, let's just 
contract out for certain things with Russian companies that 
will permit them to have the resources directly from us and 
save us money at the same time.
    And please feel free to comment on any part of that 
presentation.
    Mr. Goldin. Okay. I'll be happy to.
    First, let me go back to when we made the arrangement. The 
Russians were going to build the Mir-2 Station. And in June of 
1992, I first went to Russia to just talk to them and see what 
we would do.
    Later, in February of 1993, President Clinton met with 
President Yeltsin and they agreed that we ought to work 
together in space.
    So the Russians made a decision to cancel the Mir Station, 
but that took a few years because there were those in Russia 
that did not want to cancel it.
    There is an issue of unbelievable national pride in Russia. 
If you take a look at Russia, you see monuments to space all 
over Moscow.
    If we just relegate them to a subcontract without going 
through some reasonable process after they canceled their Mir-2 
Station, I think we would be dealing with them in the spirit 
with which we signed up.
    Now you could argue, maybe we did the wrong thing. We did 
what we thought was right at the time.
    Mr. Rohrabacher. If accounting for Russian pride right now 
is going to bring down the Space Station, we're on the wrong 
path.
    Mr. Goldin. Well, let me tell you about our approach. That 
is specifically why we set up an approach to buy the FGB2 as a 
subcontract and we're studying that in detail with the 
Russians. And in parallel with that, we're looking at using the 
Naval Research Laboratory stage, and we'll compare the two. 
Whichever is the lowest cost, best scheduled, best performance, 
is the way we're going to go, as we should.
    So given where we are today, we believe we're considering 
going in that direction. I cannot talk about the discussions 
between the Vice President and the Prime Minister. But in the 
discussions that I have had with my Russian colleagues, we talk 
about the switch in relationship from partners to 
subcontractors if there's lack of performance.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Ohio, Mr. Traficant.
    Mr. Traficant. Well, you know, we sit and listen to a 
discussion of a $50 billion project. And the words that are 
coming forth now are promises and attempts to comply. Prime 
Minister Chernomyrdin and Vice President Gore making some 
agreement.
    I think one of the things that sold the Space Station to 
many people who represent districts that are hard hit, who have 
to bring some finances back to earth, is the fact that there 
could be some

[[Page 38]]

commercial gain, commercial application. And there was a 
participatory element to the Space Station that made it 
collectively a global program, with 15 nations involved.
    And, quite frankly, when I listen to this and look at the 
word promises and all of these provisos that have gone into 
this, I think we've had a pretty good program to sell Congress 
to pass it, and you did that.
    Now I think the Chairman is right on course in talking 
about what are the contractual relationships, what type of 
monitoring mechanisms are in place to ensure that those 
participating nations--not just Russia, which has now come 
forward, how are they on schedule in the financial commitments 
they made to the International Space Station, because it looks 
to me like we're trying to find a way to keep Russia involved 
by subcontracting with them, and the bottom line is picking up 
some costs.
    We've already put about a half-billion dollars over there. 
Jobs are going to Russia.
    We need jobs in this country. And now we're back again with 
a participatory program and our major player may not be able to 
suit up.
    I think it's back again.
    Mr. Goldin, many of us here have supported you. You've 
worked very hard. But I think it's time for this Committee to 
know what nations have bellied up here, come up with their 
share, and what financial commitments are documented with 
accompanying types of contractual stipulations that will 
enforce that, and how do we monitor?
    And I open it up to you and anybody else who would like to 
jump in.
    Mr. Goldin. Let me start with Japan.
    Japan has done everything they said they would do, and 
more. They are building their Japanese Experiment Module. 
They're building all the equipment, and we can track it day by 
day. We have people in Japan tracking it in their factories.
    The Canadians. I just spoke to them yesterday. They are 
building the Mobil-ARM.
    And I might say, in 1994, we had major problems with the 
Canadians. They had a new government come in and that new 
government drastically cut their program. And the Canadians 
came to us and said, ``We're in trouble. Can you work with 
us?''
    We are still trying to close out some of the open issues 
with the Canadians and they owe us a dexterous manipulator and 
they still haven't finished signing up to that manipulator.
    So while they're building the arm, the hand of the arm, if 
you will, still remains an open issue.
    But we're confident that by working with them, we will get 
there.
    The Europeans have not yet--they just authorized their 
Columbus Orbital Facility and they are just starting 
construction now. They are starting design of the Arianne 
transfer vehicle, which will be bringing propellant up to the 
Space Station.
    They have not committed yet as many funds as those other 
two countries.
    So furthest along is Japan. Next is Canada. Next is Europe, 
with 10 countries in Europe.

[[Page 39]]

    With regard to the Russians, we now have people in their 
plants. We have an agreement to look at their sub-tier 
suppliers. This has been a major problem for us. We saw 
hardware at their prime contractors, but the sub-tier suppliers 
were not getting paid. And now, as a validation that the money 
is flowing, we will have our people at the sub-tier suppliers 
to see that the work is being done.
    Mr. Traficant. What you're saying to this Committee again 
is that these nations are living up to their contractual 
agreements. There are no problems other than Russia that you've 
presented here today that we're talking about here today.
    Is that correct?
    Mr. Goldin. We still have a small issue with the Canadians, 
but I expect that that will be resolved by April 1st.
    Mr. Traficant. But no other problems whatsoever.
    Mr. Goldin. None that I know of today.
    Mr. Traficant. Well, I'd just like to go on record as 
thanking the Chairman for this meeting. And I would just say 
this.
    There's an awful lot of money going overseas when we're 
very limited here. There's a lot of jobs being created overseas 
in the space industry and we're the ones that's stroking the 
furnace with our money.
    And I would advise us to make sure that these contractual 
relationships are monitored carefully.
    With that, I yield back the balance of my time.
    Chairman Sensenbrenner. That's why we're here today. The 
gentleman's time is expired.
    The gentleman from Florida, Dr. Weldon.
    Mr. Weldon of Florida. I thank the Chairman, and I commend 
the Chairman for calling for this hearing early because I 
consider this to be probably one of the most difficult issues 
that this Committee will be wrestling with in the upcoming 
year.
    I'm sure, as most of the people in this room know, I've 
been a strong supporter of the space program, and in 
particular, a strong supporter of the Space Station effort.
    I have been very impressed by the fact that the Space 
Station effort requires a tremendous amount of cooperation from 
a lot of people. And I know in particular that cooperation for 
the people who I represent, the people who work at Kennedy 
Space Center, has been pretty significant.
    The High Inclination Orbit required for Russian cooperation 
has placed very, very tight launch windows on getting Shuttle 
missions off. And despite significant lay-offs and significant 
reductions in its budget, the work force at Kennedy Space 
Center has been able to fulfill its end of the bargain.
    And indeed, from what I hear, from people like you, Mr. 
Goldin, the Russian workers actually working on a unit like the 
FGB, they are fulfilling their end of the bargain very well, 
but that we just have a very, very serious problem with the 
Russian government.
    The root of the problem with the Russian government is 
their economy is not an economy that can support this kind of 
an effort.
    Indeed, I have been informed that they have a negative 
growth in their gross domestic product, that their revenues 
into the treasury are actually typically a half of what they're 
anticipated to be, and that this country, though it had all the 
appearance of being a

[[Page 40]]

world-class nation for decades, in reality, is not a country 
that is capable of sustaining this kind of an effort.
    And my question, or my concern is, Mr. Goldin, you've 
outlined a plan, a stop-gap plan that can keep the program 
rolling along.
    But as I understand it, the Space Station effort in the 
outyears entails a huge amount of Russian cooperation in terms 
of ferrying supplies and material and people back and forth. 
And that is all factored in in terms of the cost of the 
program.
    And if we are somehow able to get through this process, if 
the Russians do finally pony up their share of the money and 
perhaps you do have to engage in some of these stop-gap 
efforts, what is going to happen next year and has your agency 
pursued a plan to deal with future problems?
    Because, as I see it, unless things economically and 
politically turn around in Russia, that we may be facing 
hearings like this every year for the next 5 or 6 years about 
the failure of the Russian government to fulfill its end of the 
bargain.
    Mr. Goldin. Thank you for that question.
    First, let me say that one of the reasons that we worked 
with Russia just on the development phase was to save $2 
billion and accelerate the schedule 18 months. There was 
inadequate funding for the Station.
    Given the funding we had, we tried to find creative 
solutions.
    Secondly, when the prestigious Vest Panel reviewed the 
program, they were concerned that the Shuttle was the only path 
up and down, and having another vehicle to go up and down made 
sense.
    So that is by background.
    Now, the Russians in the operation phase have a huge load 
that they've signed up to take on.
    Now in parallel with working with the Russians, we did 
negotiate an arrangement with the Europeans to begin to offload 
the shuttle where they will use their Arianne transfer vehicle 
to bring orbit-raising propellant up once a year as part of 
their common operating costs.
    We are now working with the Japanese on their H2A vehicle 
to also help off-load situation, not to completely resolve it, 
but to get away from total reliance upon the Shuttle in the 
event that we do have problems with the Russians.
    Those are some of the contingency things we're taking a 
look at.
    But I want to come back and say, if we did not work with 
the Russians--and I want to point out for Mr. Traficant that 
the relationships with all the other countries is no cash 
changes hands--Canada, Europe and Japan--no money changes 
hands.
    And in the case of the Shuttle-Mir mission, I'd also like 
to correct an impression.
    We paid for a portion of the Shuttle-Mir. But the Russians 
put a significant amount of money into Shuttle-Mir and that, 
too, is a cooperative effort. It is my engineering assessment, 
even if we were to separate from the Russians now, which I 
don't expect we will do, that without the relationship we had 
for the last 3 years on the Shuttle-Mir missions, we never 
would have demonstrated that we could meet a 5-minute launch 
window.
    We never would have demonstrated that we could take a 
quarter-of-a-million-pound Shuttle and dock it with a quarter-
of-a-mil

[[Page 41]]

lion-pound Space Station and keep the loads under 600 pounds 
while traveling at 17,000 miles an hour.
    For Mr. Traficant, we would not have demonstrated that we 
could do better designer drugs. We're building crystals with 
30-times the efficiency in designer drug experiments that will 
apply to the pharmaceutical industry as a result of working 
with the Mir Space Station.
    We wouldn't understand logistics and the cost risk to this 
program could be measured in billions of dollars without the 
Shuttle-Mir program.
    Once again, it is risky. NASA does risky things. You have 
to hold us accountable for what we do. But I believe we did the 
right thing by working with the Russians. And throughout any 
major development program in the history of this government in 
high tech, there have always been problems.
    You never have it nice and neat. You never avoid design 
problems in the middle. We believe in tooth fairies if we 
believe that.
    What NASA is about is taking risk and doing difficult 
things, slammed against the wall, lifting ourselves back up and 
doing bold things.
    We're America. We're NASA. And we'll work our way through 
it.
    Chairman Sensenbrenner. The gentleman's time has expired.
    Now the gentleman from Indiana is recognized for 5 minutes.
    Mr. Roemer. Good afternoon, Mr. Goldin. I've got just a 
couple of questions. Welcome to the Committee.
    As I prefaced my remarks in the opening statement, I would 
hope that you would be up here soon to talk about the Hubble 
operation and the magnificent things that are being 
accomplished there.
    As you just mentioned, so many good things are going on in 
NASA and we concentrate on a crisis that we have today. But 
there are many good things. And I hope that you'll be up here 
soon to tell us how that mission is going.
    How long did we practice for that mission that we are now 
repairing and improving Hubble and that we will be able to do 
more magnificent things in the future with Hubble?
    Is it 2 years?
    Mr. Goldin. About 2 years.
    Mr. Roemer. So those astronauts that are up there now 
practiced for 2 years underwater to do some operations up there 
to replace some very sophisticated machinery up there. That is 
a project I support and I hope that we will continue to do 
things like that.
    Now, so that everybody understands this crisis, because it 
is a very complicated thing building a space Station, let me 
see if I understand it.
    We're talking about three things right now. We're talking 
about the FGB. We're talking about the Node. And we're talking 
about the Service Module.
    We are about 10 months from a launch to start the Space 
Station. Are we going to make that launch, Mr. Goldin?
    Mr. Goldin. Right now, our first two elements, the FGB and 
the mode, will be ready for that launch.
    Mr. Roemer. Okay. So you think that we'll make that launch.

[[Page 42]]

    Mr. Goldin. I said that we'll be ready. We have to see what 
is going to happen with the Service Module. And until we 
understand it, if the Service Module really gets delivered when 
the Russians say it will be, I believe we'll be able to hold a 
launch date.
    Mr. Roemer. Now the key to the Service Module is that FGB 
is going to keep whatever we construct up in the sky. Now the 
Service Module that the Russians now have said is going to be 
delayed 4 to 8 months is what then----
    Mr. Goldin. Six to eight months.
    Mr. Roemer. Six to eight months now, which is worse. The 
Service Module will keep the Space Station from falling out of 
the sky.
    So you're working on a very, very narrow, precarious window 
right now. If you launch in 10 months and that Service Module 
is delayed at all, and you've got the FGB and the Node up 
there, they come down. They come down. And everything goes for 
naught.
    Mr. Goldin. Can I answer?
    Mr. Roemer. Sure.
    Mr. Goldin. We would not irresponsibly launch if we felt 
the Service Module would not be there.
    Mr. Roemer. So there's a possibility now you'll be ready, 
but it all depends upon how we work out this crisis with the 
Russians.
    Mr. Goldin. Let me also say that we're not just sitting 
waiting for the Service Module. We are working with the Naval 
Research Lab that has an upper stage, an existing design which 
we believe we could replicate with minor modification and use 
and perhaps launch as early as August to keep the system up in 
the sky another year.
    We're also looking at the FGB2, which we would modify with 
American avionics control systems to be launched in June.
    Mr. Roemer. Mr. Goldin, I only have 5 minutes.
    Mr. Goldin. So, again, I want to come back and say, we 
would not irresponsibly launch something to just see it come 
out of the sky.
    Mr. Roemer. So the answer to the first question, then, will 
it be launched, is there is a significant potential that it 
will not be launched on time.
    Mr. Goldin. I didn't say significant potential. I said we 
will have to evaluate it, and there's a possibility that we 
might wait.
    But right now, the equipment will be ready for launch.
    Mr. Roemer. Now, as Ms. Smith said, the Russians have come 
through with 73 to 83 percent of their allocation to the 
Russian Space Agency.
    They now have to, after we have seen that we've had 
problems now with the Service Module, they have to do reboost 
capabilities, crew return vehicles, life support systems, roll 
controls, a couple other things.
    Koptiev has estimated that the value of the Russian 
participation is somewhere between $3\1/2\ and $5-billion.
    We, American taxpayers, have already sent the Russians, how 
much? $400 million? $460 million?
    Mr. Goldin. We have not sent the Russians money. We have 
bought goods and services to work on the Shuttle-Mir program, 
which was absolutely mandatory if we were to proceed. And we

[[Page 43]]

have bought an FGB tug, which, for $210 million, and had we 
bought it in this country, it would have been $750 million.
    We go for open competition in a capitalistic system and we 
bought it and they delivered it and, in fact, it is going to be 
shipped for launch in May.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Brady.
    Mr. Roemer. Mr. Chairman, could I just ask you a question? 
Are we going to have opportunity to ask another series of 
questions in a second round?
    Chairman Sensenbrenner. It depends upon what time we get to 
the second round.
    Mr. Roemer. Okay. Thank you.
    Chairman Sensenbrenner. The Chair has been operating under 
the 5-minute rule, including imposing it upon himself. The time 
expires when the witness concludes answering the last question 
that has been asked within the 5-minute period.
    The gentleman from Texas, Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    I'm not familiar with the political climate in Russia and 
don't know if the financial difficulties are the result of a 
desire to pay or ability to pay.
    But so far, we have at least two deadlines that we're 
looking at. From your expectation, what changes have occurred 
within Russia that would raise the expectation that they can 
meet those deadlines?
    Have they fixed the problem? Are they fixing the problem 
internally that has caused them the financial delays?
    Mr. Gibbons. Let me start on that, if I might, Mr. Brady.
    Clearly, the election of Mr. Yeltsin settled a great 
uncertainty last year and the Russian economy has been 
improving over the last year.
    The tax collections are coming up, but are still 
problematic for them. There's no question but what they are in 
a very difficult economic strait now. They're having to worry 
about whether they pay the military or do other things.
    It's that difficult.
    But it's our feeling that things are considerably better 
off than they were a year ago, all around, and that gives us 
more optimism for the reality behind Mr. Chernomyrdin's 
promise.
    The other thing that's important to me is that this is a 
promise that will either be kept or broken within 30 days after 
it's made, and that's a lot better than some indefinite number 
of months.
    We have a tight timeline to work into.
    But I'd like to add, if I might, for just a second before 
Dan picks up.
    If you think about the Cold War when we were spending in 
today's dollars probably well over $50 billion a year on our 
defense side of Russia, and then the paths we chose from at the 
end of the Cold War, to take a path of cooperation and 
assistance with Russia in helping them move toward a market 
economy, and economic strength, and a civilian economy with 
resilience, a science and technology base that would enable 
their growth, that was a choice that was not free for us, but 
it was by far the more desirable and

[[Page 44]]

probably the least costly of the kinds of futures we could have 
chosen.
    And I thought about that this week, during this past week 
during the Gore-Chernomyrdin meeting in which we were working 
hard and closely together on resolving some issues as partners 
looking toward the future, and in the very face of the time in 
which there was great tension between the United States and 
Russia over the NATO expansion to the east.
    And I believe honestly that our ability to work through 
this NATO situation with the Russians is vastly facilitated by 
the kind of working relationship we've built with Russia with 
such things as the Space Station work.
    So its pay-off is manifold. And I believe the NATO contrast 
with our work on the Station amply illuminated that this past 
week.
    Mr. Goldin. I'd like to expand on that on a number of 
points.
    First, I think the intensity of our interaction in the last 
2 months has made it very clear that this program is on the 
edge. It wasn't a disrespectful interaction, but the intensity 
both from the Administration and from the Congress I think has 
gotten some very serious attention in Russia.
    Second, we are getting much more visibility than we've ever 
had. And I think this is a signal to us that they understand 
the problem, and getting our people into the sub-tier suppliers 
was absolutely crucial because we'd see all these big shelves 
when we'd go to Russia, thinking the hardware is being done, 
but the electronic boxes were missing.
    Third, we have been very deliberate in making sure that the 
Russians understood we're serious about having a complete and 
full back-up. And I believe that our relationship that's warmed 
up with the Naval Research Lab, some of the other equipment 
we're building has sent the signal.
    Finally, I think the most important activity is the issue 
of trust, which I referred to before.
    Remember, you're talking to someone who designed weapons. 
So did Yuri.
    The Shuttle-Mir mission has changed everything. Where we 
would argue over nits and nats a year ago and not trust each 
other, those Shuttle-Mir missions have made a huge change in 
attitude and they are now beginning to trust us.
    And I think that is a very important overriding factor for 
the future.
    Mr. Brady. Thank you. I apologize for the interruption, 
too.
    Thank you, Mr. Chairman.
    Chairman Sensenbrenner. We now have five votes in a row. 
There is one 15-minute vote and four 5-minute votes, plus walk-
around time and straggler time.
    My guess is that we will not be done until about 3:15 p.m.
    May I ask the witnesses what their availability is to come 
back?
    Mr. Goldin. I'm available at your call.
    Chairman Sensenbrenner. Dr. Gibbons?
    Mr. Gibbons. Mine's a little uncertain. I have an 
appointment with the Vice President and I'd have to check on 
that.
    Chairman Sensenbrenner. Okay. Ms. Smith?
    Ms. Smith. I'm at your disposal.

[[Page 45]]

    Chairman Sensenbrenner. The Committee is recessed until 
3:30 p.m.
    Members who wish to ask questions, please be back promptly.
    [Brief recess.]
    Chairman Sensenbrenner. The Committee will be in order.
    The Chair recognizes the gentleman from Florida, Dr. 
Weldon.
    Mr. Weldon of Florida. I thank the Chairman.
    Mr. Goldin, I have a quick question about the FGB2 scenario 
you proposed.
    That scenario does not involve habitation, as I understand 
it correctly. It will keep the Station stable in orbit and keep 
it aloft. But you still won't be able to put astronauts or 
cosmonauts in there for any extended period of time.
    Is that correct?
    Mr. Goldin. That is correct. The next series in our 
decision tree would be if we don't believe that the Service 
Module will ever arrive. The next step is to retrofit our 
laboratory with environmental control equipment, sanitary 
equipment, and a galley.
    As a result of comments from the Chairman a few years ago, 
we have scarred the laboratory so that we can outfit it with 
life support systems.
    Mr. Weldon of Florida. Have you done a cost analysis on an 
intervention like that at this point?
    Mr. Goldin. Not yet because--the concern that I have is 
that if we get our team working all these things in parallel, 
they'll stop building hardware.
    So we've tried to keep just a small core team focused on 
the near-term actions that we have to take. But we certainly, 
if you submit a question to us, I can get an answer to you.
    We hadn't planned on doing it for the next, at least the 
next month. We wanted to focus on FGB2 or the NRL approach or 
taking other steps to handle a Service Module. But beyond that, 
we had not gone.
    Mr. Weldon of Florida. I just have one more quick question. 
You may not be able to answer this. It may be above your pay 
grade.
    I am just curious how much these foreign affairs decisions 
play into the technical side of all this.
    In other words, what is the discussion in terms of foreign 
policy versus the practical side of getting the Space Station 
in orbit? Naturally, from my perspective, my priority is 
getting the Space Station in orbit. But how much do extraneous 
foreign policy issues play into all these discussions between 
the Vice President and Mr. Chernomyrdin?
    Mr. Goldin. Let's see. I think it would be inappropriate 
for me to get into discussions between the Vice President of 
the United States and the Prime Minister.
    But I can tell you that I have never been directed by the 
Vice President to perform this task because of foreign policy 
situations. We've always been held accountable at NASA to the 
schedule, the budget, and the technical performance.
    Clearly, there is an advantage to the United States people 
of working with the Russians, but that doesn't factor into my 
discussions on it.

[[Page 46]]

    Mr. Weldon of Florida. One last quick question. Are there 
any savings if the Russians were to totally collapse and we 
were to go ahead with this project with our other international 
partners? Are there any savings from taking the Station out of 
this high inclination orbit and are they significant savings at 
all?
    Mr. Goldin. I don't know how to answer that, except to say 
there is a down side because we've done an enormous amount of 
analysis.
    You have solar angles. You have shade. You have angles for 
ejecting heat. And we may have to do all that work.
    Mr. Weldon of Florida. All over again?
    Mr. Goldin. All over again. And that gets into really 
another redesign activity.
    Mr. Weldon of Florida. But there has been redesign of the 
Shuttle to accommodate the high inclination. Are you saying 
that the money is already spent and there's nothing we can 
recoup there?
    Mr. Goldin. Most of the development money I believe is 
behind us. There's one large remaining task to be completed, 
and that's the super light-weight tank. and I believe that tank 
is supposed to come on line in about a year.
    Mr. Weldon of Florida. That's the aluminum lithium tank?
    Mr. Goldin. That's the aluminum lithium tank. But that is 
in our minds something that we'd like to have to just give 
ourselves some extra capacity on the Shuttle in terms of launch 
weight.
    But I don't know how to answer is accurately because we 
have not done that analysis.
    Mr. Weldon of Florida. I thank the Chairman. I yield back 
the balance of my time.
    Chairman Sensenbrenner. The gentlewoman from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and I thank him for 
holding this meeting to help us put into focus, if you will, a 
series of newspaper articles and discussions that we know have 
occurred over the past couple of weeks.
    I thank the Administrator and the other witnesses that have 
been here and I apologize that I may have missed their 
presentation.
    Mr. Chairman, I'd like to in my 5 minutes just make a few 
comments and ask unanimous consent to submit my opening 
statement for the record.
    Chairman Sensenbrenner. Without objection.
    [The opening statement of Ms. Jackson Lee follows:]

                          Hearing Statement by

                       Congresswoman Jackson Lee

          House Science Subcommittee on Space and Aeronautics

   ``The Status of Russian Participation in the International Space 
                               Station''

                           February 12, 1997

    Thank you Chairman Sensenbrenner, Ranking Member Brown and 
Subcommittee Chair Rohrabacher for bringing this opportunity to discuss 
the participation of the Russians in the International Space Station 
before the Science Committee's Subcommittee on Space.
    Because of the strategic location of the constituents of the 18th 
Congressional District of Houston, Texas, both physically and 
passionately to America's space effort,

[[Page 47]]

I approach this hearing with much concern. The Johnson Space Center in 
Houston, Texas has been designated the lead center for management of 
the Space Station program.
    The issue of America's space program is of vital concern to all of 
the members of the House Science Committee, but especially to those of 
us on the Subcommittee on Space and Aeronautics who are charged with 
the heavy responsibility of recommendation and oversight of the United 
States' involvement in the International Space Station.
    We must get answers, and I know from experience that the witnesses 
who I am acquainted with, will be more than prepared to assist in our 
search for answers today. The only point I would like to make, is that 
the Russians must, and I hope it will be in the near future, come to 
give an account of their own as to their ability or willingness to 
follow through on their commitment to the International Space Station.
    The United States through the hard work and dedication of Vice 
President Gore and the leadership of the National Aeronautics and Space 
Administration's Administrator Dan Goldin have demonstrated a good 
faith effort in making accommodations to merge the technical and 
administrative policy of the international participants of the Space 
Station with our domestic program. They have accomplished this awesome 
task and stayed within the specific cost guidelines for the United 
States portion of the International Space Station from fiscal year 
1994, of an amount no more than $17.4 billion.
    Specifically, the International Space Station's orbit was changed 
from a 28.5 degree to a 51.6 degree inclination from the equator to 
accommodate the Russian procedure for launches, which is from a higher 
latitude than our own space program. Sure, this orbit has a narrower 
launch window and of course it costs a little more to reach. This is 
because it takes more power to lift a payload or it will require that 
we reduce the amount sent up each trip because of the higher 
inclination. As a result, three of NASA's four Space Shuttle orbiters 
are being modified to reach the new orbit.
    This is the 18th Congressional District's taxpayers' money at work. 
Before we leave this hearing today with our District work period fast 
approaching at the close of this week, I need to know how to explain 
the cost that the American taxpayer has incurred, so far, in our effort 
to build a bridge of world peace.
    I know that we are here to talk about someone else's money and 
their representatives may or may not be in the hearing room. 
Unfortunately, the Russian Space Agency will not be participating, but 
I would hope that a mechanism is in place to transmit our concerns and 
allow them an opportunity to answer for themselves on the question of 
if or when will they be able to meet their financial obligations with 
regard to the International Space Station?
    I feel, that as members of a deliberative body, that we can narrow 
the problem down to two areas: The first is budgetary--Do the Russians 
have the financial wherewithal to keep their good faith promise?; or 
the second is political--Is there the political resolve within the 
Russian government to keep their good faith promise to the 
International Space Station?
    I hope that one or all of the panelist can speak to these questions 
for us today.
    Thank you Mr. Chairman.

    Ms. Jackson Lee. I believe that there has been a very 
positive coming together around the Space Station to the extent 
that we have reasoned together about a consistent and 
established budget over a 5-year period.
    I'd also like to compliment NASA and its Administrator and 
staff for working to be both efficient, effective, and 
committed.
    I hope in the course of determining Russia's commitment 
that Russia's inactivity or minimized commitment will not 
impact on the many hard-working staff that we have at many of 
our space centers and NASA centers around the Nation, 
particularly, I will note the Johnson Space Center that 
presently has worked very hard in many instances to downsize. 
And I know we can expect more in terms of a commitment to make 
it an efficient center as all the others are as well.

[[Page 48]]

    So my concern today and the interest of this particular 
hearing is to ensure that we are on track and that discussions 
are occurring.
    I'm appreciative of the Vice President's effort. I 
understand that included in that meeting were eight 
representatives from NASA and that the talk with the Russians 
was extremely frank.
    Let me then raise several questions and I apologize if you 
may have answered them, but a brief summary for me would be 
much appreciated.
    The Congressman from Florida, the gentleman from Florida 
raised the issue of the changing of the orbit that was required 
with respect to accommodating the Russian procedure for 
launches.
    If I can ask the question in a different way, which is, 
simply, were extra monies expended to have done that, to move 
us from the 28.5 degree to the 51.6 degree?
    Mr. Goldin, so my question is, was money expended to have 
that occur?
    Mr. Goldin. Yes, it was.
    Ms. Jackson Lee. And that money, as I understand it, is 
already expended.
    Mr. Goldin. A good portion of it.
    Ms. Jackson Lee. So we have shown or have worked or have 
expended dollars to accommodate the partnership that we want to 
see work with our Russian partners at this time.
    Mr. Goldin. Yes, we have.
    Ms. Jackson Lee. One of the things that also has been 
mentioned along with these discussions with Russia is the whole 
issue of the slipping Station assembly schedule.
    I want to refer you to a comment made in a press story, 
February 11th. NASA officials were considering delaying the 
start of assembly of the $40 billion orbiting laboratory from 
November until May 1998, because a key Russian component is 
running late.
    If that story is accurate, what is the component? Are they 
talking about the finances or is it something else?
    Mr. Goldin. I can't respond to every piece of information 
in the press.
    Clearly, we always look at all options as we go along. 
Right now, we will be ready to launch the first two elements on 
time. We want to understand when the Service Module is really 
going to be there or if it will be there. We want to understand 
the other options we have relative to the Naval Research Lab 
approach and the FGB2 approach.
    We do not want to arbitrarily launch hardware just to get 
it up in space because we're ready to go launch. There has to 
be a technical reason for doing it.
    Right now, I have no reason to believe that we won't launch 
on time. However, I am committed not to arbitrarily launch, or 
we will not arbitrarily launch if it doesn't make sense, 
especially if it would risk the hardware because the Service 
Module might not get there on time.
    Ms. Jackson Lee. I sense from your answer, then, that you 
want to see all of the pieces of the puzzle be in place 
consistently to ensure that we're doing the right thing, 
simply.

[[Page 49]]

    Mr. Goldin. Absolutely. And we have a team of the most 
outstanding people in the world working on it right now. And 
when we get all the pieces of information, I think it would be 
a more appropriate time to comment.
    But I want to come back and say, while all this analysis is 
going on around every nook and cranny in the United States, 
we're building hardware. We're telling people, we're holding 
you to schedule. We're holding you to budget.
    Keep on building.
    We're moving very, very fast, and if we're ready and if 
it's the appropriate thing to do, we will launch.
    Ms. Jackson Lee. You'll keep this Committee apprised, 
obviously, of those kinds of changes, and I appreciate it.
    And my last question is simply, any discussions about 
reducing the Russian participation or changing it or modifying 
it, is there anything that is now firm? What does that mean? 
And again, is that something that we'll be continually apprised 
of?
    Mr. Goldin. First of all, we believe that this Committee is 
the strength of the program because you hold us accountable for 
what we're doing. And I believe this is the way democracy 
works.
    Clearly, we will communicate with this Committee when we 
have data at a sufficient level of maturity.
    What we can't do is every time there's another press report 
about three rumors from five employees and a specific part of 
NASA talking about it, we'll just be inundated and not be able 
to do our job.
    Ms. Jackson Lee. Well, I can assure you that I will 
approach you on the level that we're all sort of on the same 
page. I know my constituents are certainly concerned about the 
activity at the Johnson Space Center, but also, the commitment 
to the Space Station, makes us not ready for rumors, but 
certainly ready to be cooperative and makes sure that it works.
    Chairman Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from California, Mr. Capps?
    Mr. Capps. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing today and also for allowing those of us 
here who have not yet been formally seated on the Committee to 
participate.
    I hope it doesn't show, but I'm a freshman.
    [Laughter.]
    Mr. Capps.I'm grateful that we can work together in a 
bipartisan way.
    I also want to say that I've been at the University of 
California for over 30 years, not in a science field, but in 
the humanities field. But I understand the importance of 
scientific research and I'm really delighted that I could be on 
this Committee and I'm going to work hard.
    I'm a long-time supporter of NASA. But I've found much of 
what I've heard today and read before I came about the Russian 
component of the Space Station venture to be troubling. I think 
my question comes down to one that I think is fairly simple.
    Ms. Smith talked about Russian contributions to the 
deployment of the Station beyond the Service Module, 
contributing additional things beyond the Service Module.

[[Page 50]]

    I have to confess, I don't know what those elements might 
be. And I wonder if there's any assurance that the Russians 
will not default in that range of things. Or to put it in a 
more positive way, are there good, positive expectations that 
they'll come through in cooperation with us at that level 
beyond what we're talking about with the Service Module?
    Mr. Goldin. I believe that the subjects that we talked to 
the Russians about, as they say in the diplomacy business, were 
very frank and candid discussions.
    We made it clear that we are at a turning point. And at 
this point in time, we've got to know, are the Russians going 
to work with us and do what they say they're going to do, or 
are they going to go in another direction?
    Again, this is a decision that an independent nation must 
make. But we have to know now.
    There is one element that I don't believe they will be 
delivering on, and that's called the LTV, or Logistics Transfer 
Vehicle. And they are proposing to use some of their existing 
hardware to perform that function.
    But as far as we know, all other elements will be 
delivered.
    As far as the Americans are concerned, the key piece of 
equipment is the Service Module because in all other regards, 
we can't proceed with the Space Station without it.
    Now there's one other piece of information that I left out 
that I think is very, very vital. And that is to give ourselves 
added assurance of taking one more step, and that is we're 
looking at taking the pod from the extended duration orbiter 
and having it outfitted with tanks, so we can have the 
flexibility of using the shuttle or Russian launch vehicles to 
bring propellant up to the Space Station.
    This is another very critical element that will take some 
stress off the program if we have trouble downstream.
    So that's the best way I can answer your question.
    Mr. Capps. Okay. I'd like to do a quick follow-up, and that 
is I know that we have other ventures on a cooperative basis 
with the Russians, commercial space kinds of ventures.
    Is there a possibility that we can redirect, that we can 
ask them to redirect some of the resources in lieu of 
defaulting in this particular area?
    Would it make any sense to proceed in that fashion?
    Mr. Goldin. As the NASA Administrator, I could say what I 
desire, but I think it would be very inappropriate for me to 
speak to other elements of the government. That question might 
be better focused on a different official in the government.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Minnesota, Mr. Gutknecht?
    Mr. Gutknecht. Thank you, Mr. Chairman.
    I want to thank Mr. Goldin and the other folks who have 
testified here today.
    This is a very difficult problem. And let me say first that 
I think the basic notion of working together internationally on 
space exploration and particularly on very expensive projects 
like this I think is a good idea.

[[Page 51]]

    But my old German grandmother used to say, too soon old and 
too late smart.
    I'm really deeply concerned that, as we go down this path, 
if we forgive the Russians now for not living up to their end 
of this bargain, as Dr. Weldon said earlier, I'm not certain 
where we're going to be 2 years from now, 3 years from now, as 
we get deeper into the project.
    And my real concern, and this isn't really a question as 
much as it is a comment, and I think we need to get this out on 
the record because I think at one point, I think it was stated 
by someone that the Cold War is over.
    I think that's essentially true.
    But one of my real concerns is that the Russians seem to 
have enough cash to have launched several Typhoon-class 
submarines in the last couple of years, and as far as we can 
tell, they're in the process of building quite a facility 
underneath the Ural Mountains large enough that--some say it 
would be larger than the area that we call the District of 
Columbia built underground.
    Now what exactly that facility is all about, we really 
don't know.
    And the real concern that I have is that people tend to 
afford to what they want to afford. And obviously, the Russians 
have economic problems. But I hope that we're not in the 
business of, in effect, subsidizing their military-industrial 
complex by picking up part of the slack as it relates to their 
commitment to the Space Station.
    Obviously, I'm not sure that you can respond to that or 
even if you should. But I think at some point----
    Mr. Goldin. I would like to.
    Mr. Gutknecht. Public policy-makers need to at least ask 
themselves that question, and we need to be aware of that 
possibility.
    But, again, I think we ought to give you as much latitude 
as possible to come up with solutions. But I don't think we 
should be too soon old and too late smart.
    Mr. Goldin. I don't disagree with what you said. I want you 
to understand, as much as I feel committed to making this Space 
Station happen, I come from a school of thought which says, you 
do what you say you're going to do.
    If you do not perform, it's unacceptable. I have a very 
hard time in those situations.
    I want to assure you I'm very frustrated. I believe it was 
established as a national priority and trust is a very 
important word because this is what we are talking about. Will 
we trust each other if one of us doesn't perform?
    I hope in this process over the next 3 weeks the priority 
process is looked at. I want you to understand I spent the 
major portion of my career in industry building weapons 
systems.
    I'm proud of it. I will make no apologies for it. I'd like 
to not go back to do it. If I have to go back to do it, I will.
    I view the relationship, if we could make it happen between 
the United States and Russia, as a reason for all of us 
weapons-builders not to go back and build weapons.
    But in the end, each country has to look out for its own 
important issues, and defense of the Nation is very important. 
And we

[[Page 52]]

have to understand how each prioritizes it. And that decision 
process is out of my pay grade.
    Chairman Sensenbrenner. The gentleman from Texas, Mr. 
Lampson?
    Mr. Lampson. Thank you, Mr. Chairman.
    Mr. Goldin, I apologize for having missed so much of your 
testimony during the day, and I do have one question. As a 
former science teacher and having the Johnson Space Center in 
my district in Texas, it's quite exciting to me to see what's 
been happening with the Space Station. And obviously, we want 
to, and certainly hope that things go as well as they possibly 
can in getting it to going.
    Have there been any circumstances, any conditions under 
which you have thought of that you would seek to terminate 
Russian participation?
    And I hope that that has not already been answered in 
earlier testimony.
    And if there have been such discussions, has it included 
our other international partners?
    Mr. Goldin. First, let me answer the last part.
    We have gone out of our way to communicate with our 
international partners so they know what's going on. Mr. 
Schumacher held a meeting with them this morning, I believe. 
Yesterday, I spoke to the head of ESA. I spoke to the head of 
the Canadian Space Agency, and only because of the time 
distance, I couldn't talk to the head of the Japanese Space 
Agency.
    I committed to each of them when this process is complete. 
But before we make decisions, I will communicate with them 
again by phone and come to their countries and meet with their 
senior government officials.
    We also will not make any changes without taking it to the 
Space Station Control Board, where all the partners are 
members.
    In terms of have we gone through a process of terminating, 
I'd like to phrase it differently.
    We are at a turning point, and if in the next weeks ahead, 
before the end of the month, if the money is not released to 
the Russian Space Agency, we are going to have to find a way of 
changing our relationship from a cooperative relationship, if 
you will, to more of a subcontractual relationship, because we 
are going to build this Space Station.
    And then there will be some issues--do you go from totally 
cooperative to totally subcontract? Maybe there are some shades 
of gray in the middle.
    Before we have those discussions, I think we need to think 
our way through that and clearly discuss it with the Congress 
and then move out.
    Mr. Lampson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Sensenbrenner. Now everybody who has appeared at 
the Committee has had the chance to ask one round of questions.
    Mr. Goldin has been very patient during our hour-and-a-half 
pregnant pause during the series of votes and my meeting with 
the Minister of Science of the Federal Republic of Germany, Dr. 
Ritgers.

[[Page 53]]

    I don't want to keep him here any further. I will ask Mr. 
Goldin if he would be willing to respond to questions in 
writing from the Committee members within a reasonable period 
of time.
    Mr. Goldin. I would be pleased to do that.
    Chairman Sensenbrenner. Yes. Then, with that assurance, the 
Committee stands adjourned.
    [Whereupon, at 4:23 p.m., the hearing was adjourned.]
    [The following material was received for the record:]

                                APPENDIX

                   EXECUTIVE OFFICE OF THE PRESIDENT

                OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                         WASHINGTON, DC. 20502

 Additional Questions Submitted for the Record for Dr. John H. Gibbons 
     from Chairman Sensenbrenner for the February 12, 1997, Hearing
Gore-Chernomyrdin Commission
    Question: On July 16, 1996 Vice President Gore and Russian Prime 
Minister Viktor Chernomyrdin met and signed a milestone document for 
Node 1, FGB, Service Module, and the first Soyuz launch. Was a similar 
document signed during the Feb. 6-8, 1997 meeting?

    Answer: In July 1996, Vice President Gore and Prime Minister 
Chernomyrdin signed a document that included the development and launch 
schedule for the first four launches of the International Space Station 
(ISS) elements. They did not sign a similar schedule during their 
meeting in February 1997 because the dates of the initial launches are 
currently the subject of discussions between NASA and the Russia Space 
Agency (RSA).

    Question: What reasons did the Russians give for missing the 
Service Module milestones last year?

    Answer: We have always been told that the reason for the Service 
Module delay is the Russian government's inability to provide steady 
and adequate funding for its contribution to the International Space 
Station. There is no question about their technical capability; the 
issue is money.

    Question: If we don't see a General Design Review on the Service 
Module by mid-March--given the expectation that $100M will be released 
to the Russian Space Agency by Feb. 28--can we assume that the Russians 
are not living up to the commitments made at the Feb. 6-8, 1997, Gore 
Chernomyrdin Commission?

    Answer: As part of the modifications to the NASA/RSA contract that 
were negotiated and signed in January 1997 in Moscow, RSA agreed to 
hold a General Design Review for the Service Module by the end of March 
1997. This is now a contractual milestone under the contract 
modification. NASA expects that this review will be held close to this 
deadline and will take part in the review when it takes place. If the 
review is not held, Russia would not be in compliance with the terms of 
the contract modification.

    Question: What is the Administration's assessment of the Russians' 
ability to complete the Service Module for launch in December 1998?

    Answer: Russia's track record in producing the FGB shows that it 
can deliver hardware when adequate funding is provided. Based on Prime 
Minister Chernomyrdin's commitment that funding would begin to flow in 
February 1997, the Administration is cautiously optimistic that RSA 
will deliver the Service Module in December 1998. However, money needs 
to reach RSA's prime and subcontractors quickly if RSA is to meet the 
December 1998 launch date. We are carefully monitoring the funding 
situation, and if funding does not become available, we will take steps 
to pursue alternatives.

    Question: Did the United States promise anything in return for 
Prime Minister Chernomyrdin's commitment (during Feb. 6-8 meeting) to 
release $100 million by the end of the month and another $250 million 
by the end of the year?


[[Page 54]]


    Answer: No.

    Question: Were any broader foreign policy issues raised in the 
context of the space program discussions? For example, was any linkage 
stated or implied between fulfilling Space Station commitments and NATO 
expansion?

    Answer: No.

    Question: If the United States terminated its partnership with 
Russia because it could not deliver on its promises, what would be the 
foreign policy impacts?

    Answer: We remain cautiously optimistic that Russia will ultimately 
fulfill all of its commitments for the cooperative aspects of its 
involvement in the ISS program. Our relationship with Russia is complex 
and broad-based, and developments in any one aspect of the partnership 
must be viewed in terms of the overall relationship.

    Question: At what point will the White House decide whether Russia 
should continue as a partner in this program?

    Answer: The Administration remains convinced that Russian 
participation in the International Space Station program has been 
mutually beneficial, and we are hopeful that Russia will meet its 
commitments and continue as a partner. Any significant alteration to 
Russia's current role in the International Space Station would only be 
made after full consultation with Congress and with our other 
international partners. Based on findings over the next few weeks as to 
whether the Russians are living up to their commitments, we expect to 
be prepared to make a decision on possible alternatives by April.

    Question: Precisely what access was NASA promised at the Russian 
subcontractor level to monitor progress on the Service Module? Will 
NASA or Boeing people be on site? How often will someone from the NASA/
Boeing team be at each subcontractor site? On a daily basis? Once a 
week? Who will these ``monitors'' report to? How often will the 
Administration report to Congress on their estimates of how much work 
is being performed?

    Answer: NASA currently has resident offices at RSC-Energia and 
Khrunichev Space Center. These offices are staffed full time, with NASA 
and Boeing personnel on site and monitoring activities on the plant 
floor on a daily basis. In addition, contract modifications negotiated 
in January 1997 provided NASA with access to monitor activities by RSA 
subcontractors as required. NASA's access is for all Russian 
contributions to the ISS, not just the Service Module. The ``monitors'' 
are NASA and Boeing employees who report to their own managers in 
Moscow and to technical managers in Houston. NASA management will 
continue to assess the RSA funding situation with RSA management, 
including the provision of the $100 million due in the near term. This 
subject will be discussed in detail at the General Design Review in 
March. The Administration will report to Congress as needed.

    Question: Was NASA promised access only for the Service Module, or 
for all Russian contributions for the International Space Station?

    Answer: NASA and RSA have agreed that RSA will provide financial, 
manufacturing development schedules, and milestone information to NASA 
in March on the Solar Power Platform (SPP). RSA also agreed to 
periodically provide NASA with data on SPP development and 
manufacturing, and regular access to SPP hardware. In addition, RSA has 
agreed to provide necessary support information regarding the 
reallocation of Progress vehicles currently detailed to Mir, 
specifications of Progress numbers dedicated to ISS, manufacturing 
status for Progress vehicles dedicated to ISS, and NASA access to all 
ISS-dedicated Progress vehicles.

    Question: NASA has stated repeatedly that it has no insight into 
disbursements by the Russian government. How do you plan to validate 
that $100 million has been released to the Russian Space Agency, 
realizing that simply observing work on the floor of the Khrunichev or 
Energia plants will not validate how much funding has been released?

    Answer: We are currently waiting for a determination on whether the 
Russian Space Agency has received the promised funding, whether that 
funding is reaching the prime contractors and sub-tier suppliers, and 
whether work will be performed for the Service Module to meet the 
scheduled launch date. In order to determine if these events are 
occurring, NASA is sending a team headed by Gen. Tom Stafford to Russia 
in late March to review Russian government funding for the Service 
Module and recommendations to NASA management.

    Question: You stated in your written testimony that the need for 
the Russians to meet their commitments was communicated during the Feb. 
6-8 Gore Chernomyrdin Commission. You state specifically, ``we made it 
clear that if they fail

[[Page 55]]

to meet those commitments, we must take steps that will have the effect 
of reducing Russia's partnership role in the program.''
    Did you lay out a timeline under which their commitments are to be 
met? Was funding for Russia's contributions of the Science Power 
Platform, resupply missions by the Progress vehicle, and the Soyuz 
addressed?

    Answer: During discussions on the margins of the February 7, 1997, 
meeting of the Gore-Chernomyrdin Commission, Prime Minister 
Chernomyrdin indicated to Vice President Gore that Russia would release 
$100 million by the end of February and another $250 million by the end 
of 1997. Prime Minister Chernomyrdin also stated that he would sign a 
decree which would provide specific dates by which specific amounts of 
funding would be provided, and he challenged RSA General Director 
Koptev to recover two months of the eight month slip in the Service 
Module schedule. The Prime Minister signed the decree on February 10. 
During these same discussions, we reiterated the need for the Russians 
to live up to all its commitments which, of course, would include the 
SPP, Progress vehicle, and Soyuz.

    Question: Does Chernomyrdin's commitment to have $100 million 
released to the Russia Space Agency by Feb. 28, 1997, satisfy the White 
House? How will you be able to validate that $100 million has been 
released?

    Answer: If funding did begin to flow to the Russian Space Agency at 
the end of February as promised by Prime Minister Chernomyrdin during 
the recent GCC meeting, we would view this as a very positive step and 
an indication that Russia is fulfilling its commitment to steady and 
adequate funding for the ISS program. We will track the actions taken 
by the Russian government to release the funding, but most importantly 
we will monitor whether the funding is resulting in action on the 
factory floor that is required to meet schedule.

    Question: Would a General Design Review, where all Russian 
contractors and subcontractors stand up and tell how much funding they 
have received, be a good indication of how much funding has been 
released by the Russian government? If $100 million is released by Feb. 
28, 1997, a General Design Review could be held early in March. If a 
General Design Review is not held or if it becomes clear that $100 
million has not been released, when will you change the role of the 
Russians?

    Answer: A General Design Review (GDR) will provide insight into 
subcontractor schedule and plans. Funding levels, however, can be 
provided by RSA in the absence of a GDR. As part of the modifications 
to the NASA/RSA contract that were negotiated and signed in January 
1997 in Moscow, RSA agreed to hold the GDR for the Service Module by 
the end of March 1997. This is now a contractual milestone under the 
contract modification. NASA expects that this review will be held close 
to this deadline and will take part in the review when it takes place. 
If a GDR is not held, Russia would not be in compliance with the terms 
of the contract modification.
    The Administration remains hopeful that Russia will meet its 
commitments. Any significant alteration to Russia's current role in the 
International Space Station would only be made after full consultation 
with Congress and with our other international partners.

    Question: What happens if (1) some amount of funding is released; 
(2) work is re-initiated on the Service Module; (3) the U.S. decides 
not to pursue any interim measure; and (4) the funding flow to the 
Service Module is halted and, once again, work ceases in Russia?

    Answer: NASA and the Administration will carefully assess the 
situation in Russia and weigh the risks before making any decision on 
interim measures. As part of that assessment, we will be looking 
especially closely at the funding situation in Russia.
Status of Russian Programs
    Question: Was 1996 back funding released to the Russian Space 
Agency? If so, in what form and how much? How was the funding used? To 
pay back debts or for future work? International Space Station or the 

Russian Space Station Mir?

    Answer: The Russian Government budget process is not as public as 
it is in the United States. RSA has informed NASA officials that it has 
received funding for 1996. However, it is unclear whether RSA has 
received the full amount that was included in its 1996 budget, or 
whether the funding was in the form of government-backed credits or 
actual funding. NASA is working with RSA to clarify the funding 
situation.


[[Page 56]]


    Question: Does the 1997 Russian budget have a separate line item 
for the International Space Station? If so, what amount has been set 
aside or ``fenced'' out of the total RSA budget for ISS? What is the 
total RSA budget for 1997?

    Answer: The Government of the Russian Federation has traditionally 
not released any information on the specifics of the annual budget for 
the Russian Space Agency. However, at a recent meeting in Moscow, RSA 
Director General Koptev indicated that there will be a special 
allowance in the 1997 RSA budget for ISS activities of approximately 
1.5 trillion rubles (about $300 million). We do not know the total RSA 
budget for 1997.

    Question: The Russians were supposed to develop the so-called 
Logistics Transfer Vehicle (LTV) to reboost the Space Station. What is 
the status of the LTV?

    Answer: The LTV was not funded and RSA has no plans to reintroduce 
it. Russia will use Progress vehicles for ISS logistics.

    Question: Do we expect to make any cash payments to Russia to 
offset its costs of operating its portions of the station or in 
exchange for using its portion of the station?

    Answer: The balance of contributions which was negotiated last 
summer between NASA and RSA does not include any exchange of funds.
                                 ______
                                 
  Responses to Written Questions Submitted by Chairman Sensenbrenner 
              resulting from the February 12, 1997 Hearing

Gore Chernomyrdin Commission

    Question 1: On July 16, 1996 Vice President Gore and Russian Prime 
Minister Viktor Chernomyrdin met and signed a milestone document for 
Node 1, FGB, Service Module, and the first Soyuz launch. Was a similar 
document signed during the Feb. 6-8, 1997 meeting?

    Answer 1: In July 1996, Vice President Gore and Prime Minister 
Chernomyrdin signed a document that included the development and launch 
schedule for the first four launches of the International Space Station 
(ISS) elements. They did not sign a similar schedule during their 
meeting in February 1997 because the dates of the initial launches are 
currently the subject of discussions between NASA and the Russian Space 
Agency (RSA). Both NASA and RSA are working diligently to overcome the 
difficulties presented by the slip in the schedule of the Service 
Module. Three documents were signed by Mr. Goldin and RSA General 
Director Koptev as co-chairs of the GCC Space Committee. Those 
documents included implementing agreements for cooperation on the 
Russian ``Radioastron'' astrophysics program, and on the use of a 
Russian lidar instrument on the U.S. Mars Surveyor mission. In 
addition, Mr. Goldin and Mr. Koptev signed a protocol to cover the 
flight of two cosmonauts on the Space Shuttle in 1997, and 
acknowledging the extension of the Phase 1 program into 1998.

    Question 2: What reasons did the Russians give for missing the 
Service Module milestones last year?

    Answer 2: The issue has always been related to the Russian 
government's inability to provide steady and adequate funding for its 
contribution to the ISS.
    There is no question relative to their technical capability. Our 
concern lies with the history of the Russian government funding joint 
space endeavors and the fact that they have not fully funded their ISS 
components promised as partners. Even though their contractors have 
received some seed level of funding, they have not received their full 
percentage for agreed-upon program milestones. We are hopeful that 
recent reaffirmations of Russia's commitment to funding will result in 
the continuation of work on their space station contributions. At the 
same time, we are taking the steps necessary to enable continuation of 
the assembly and operation of the space station despite the delay of 
the Service Module.

    Question 3: If we don't see a General Design Review (GDR) on the 
Service Module by mid-March--given the expectation that $100M will be 
released to the Russian Space Agency by Feb. 28--can we assume that the 
Russians are not living up to the commitments made at the Feb. 6-8, 
1997 Gore Chernomyrdin Commission?

    Answer 3: Russian Government Officials stated at the Gore/
Chernomyrdin commission meeting in early February that Russian funding 
would begin to flow by the end of February to provide necessary funds 
to proceed with construction and that adequate funds were budgeted in 
1997 to keep the Service Module on track. Subsequently, Chairman 
Sensenbrenner went to Russia and stated in his press conference

[[Page 57]]

on February 19, 1997 that funding would not likely be provided in full 
until March or April. It will take us some time to validate that the 
money has been released to the Russian Space Agency and that it has 
reached the prime contractors and sub-tier suppliers. Right now, we are 
waiting to determine whether the Russian Space Agency will receive 
funding and whether it has reached the prime contractors and sub-tier 
suppliers with work being performed.
    NASA currently has residence offices at RSC-Energia and at the 
Khrunichev Space Center. These Offices are staffed full-time with NASA 
and Boeing personnel on-site and monitoring activities on the floor 
daily. In addition, contract modifications negotiated in January 1997, 
provided NASA access to monitor activities by subcontractors. NASA is 
also sending a team to Russia in late March, led by former astronaut, 
General Tom Stafford and including Malcolm Peterson, NASA Comptroller, 
to improve our understanding of the current status of Service Module 
funding. They will report their findings to me after their visit.
    Relative to the GDR, as part of the modifications to the NASA/RSA 
contract that were negotiated and signed in January 1997 in Moscow, RSA 
agreed to hold the GDR for the SM by the end of March 1997. This is now 
a contractual milestone under the contract modification. NASA expects 
that this review will be held close to this deadline and will take part 
in the review when it takes place. If a GDR is not held, Russia would 
not be in compliance with the terms of the contract modification.

    Question 4: Precisely what access was NASA promised at the Russian 
subcontractor level to monitor progress on the Service Module? Will 
NASA or Boeing people be on site? How often will someone from the NASA/
Boeing team be at each subcontractor site? On a daily basis? Once a 
week? Who will these ``monitors'' report to? How often will the 
Administration report to Congress on their estimates of how much work 
is being performed?
    a. Was NASA promised access only for the Service Module, or for all 
Russian contributions for the International Space Station?
    b. NASA has stated repeatedly that it has no insight into 
disbursements by the Russian government. How do you plan to validate 
that $100 million has been released to the Russian Space Agency, 
realizing that simply observing work on the floor of the Khrunichev or 
Energia plants will not validate how much funding has been released?

    Answer 4: NASA currently has resident offices at RSC-Energia and 
Khrunichev Space Center. These offices are manned full-time, with NASA 
and Boeing personnel onsite and monitoring activities on the plant 
floor daily. In addition, in the contract modifications negotiated in 
January 1997, RSA agreed to provide access to monitor activities by 
subcontractors as required. NASA's access is for all Russian 
contributions to ISS, not just the Service Module. The ``monitors'' are 
NASA and Boeing employees and report to their Moscow managers and to 
technical managers in Houston. NASA management has already and will 
continue to discuss the RSA funding situation with RSA management, 
including the provision of the $100M due in the near term. This subject 
will be discussed in detail at the General Designer's Review in March.

Status of Russian Programs

    Question 5: Was 1996 back funding released to the Russian Space 
Agency? If so, in what form and how much? How was the funding used? To 
pay back debts or for future work? International Space Station or the 
Russian Space Station Mir?

    Answer 5: RSA has informed NASA officials that it has received 
funding for 1996, however, it is unclear whether RSA has received the 
full amount that was included in its 1996 budget, or whether the 
funding was in the form of government-backed credits or actual funding. 
NASA is working with RSA to clarify the funding situation.

    Question 6: Does the 1997 Russian budget have a separate line item 
for the International Space Station? If so, what amount has been set 
aside or ``fenced'' out of the total RSA budget for ISS? What is the 
total RSA budget for 1997?

    Answer 6: The Government of the Russian Federation has 
traditionally not released any information on the specifics of the 
annual budget for the Russian Space Agency. The Russian Government 
budget process is not as public as it is in the United States. NASA 
officials have asked RSA for this type of information in the past, but 
RSA's responses have been verbal only. At a recent meeting in Moscow, 
RSA Director General Koptev indicated that there will be a special 
allowance in the 1997 RSA budget for ISS activities of approximately 
1.5 trillion rubles (about $300 million). In another meeting at which 
Vice President Gore, the NASA Administrator

[[Page 58]]

and the RSA Director General were present, Prime Minister Chernomyrdin 
said that he would see to it that Russian entities involved in the 
International Space Station would receive $100 million by the end of 
February 1997 and $250 million by the and of the year. We also 
understand that the budget which President Yeltsin signed on February 
25, 1997, included 3.9 trillion rubles for the RSA budget, but we do 
not know how these funds would be distributed. The above indicates 
Russian intent, both internally and externally, to meet its 
obligations. However, no line item has been confirmed in their budget, 
and the percentage of the total Russian budget is unknown.

    Question 7: The Russians were supposed to develop the so-called 
Logistics Transfer Vehicle (LTV) to reboost the Space Station. What is 
the status of the LTV?

    Answer 7: We signed a protocol in December 1996 agreeing that the 
LTV is no longer a requirement of the program due to Russia's use of 
the Progress vehicle to meet the logistics transfer requirements of the 
program.

    Question 8: Do we expect to make any cash payments to Russia to 
offset its costs of operating its portions of the station or in 
exchange for using its portion of the station?

    Answer 8: The balance of contributions which was negotiated last 
summer between NASA and RSA does not include any exchange of funds. 
Instead, an arrangement was established under which each side will 
provide equitable services to the other (including launch services for 
cargo and propellant resupply) to achieve an overall balance in NASA's 
and RSA's obligations.

    Question 9: What is the status of the forward funding to jump-start 
work on the Service Module?

    Question 10: Is $20 million the total amount contemplated for 
forward funding?
    a. Has $12 million already been deposited in the Russian's New York 
account?
    b. When was it deposited into the NY account?
    c. What is the schedule for the remaining payments?
    d. When are they scheduled to be made?
    e. Are the other 2 payments automatic upon Russia fulfilling the 
stated milestones for the money?

    Question 11: It should be known by mid-March whether the $100 
million has been released to RSA (because a General Design Review will 
either happen or not). Why is the U.S. transferring more money to the 
Russians when it should be known by mid-March whether the Russians are 
serious about funding the Service Module (with the $100 million 
release)?

    Answer 9, 10 & 11: The U.S. is not transferring ``more'' money to 
RSA. Funding of $20 million on the present RSA contract was rephased 
from existing Phase I and Phase II milestones and applied to new 
milestones associated with the Service Module. This allows RSA to have 
immediate funds to continue development on the Service Module and 
allows the U.S. to have insight into the Service Module progress. All 
existing Phase I and Phase II milestones in the RSA contract are 
required to be met.
    The schedule for Service Module payments are: $11.922 million on 
January 31, 1997, $4.5 million on March 31, 1997 and $3.578 million on 
April 30, 1997. The first payment for $11.922 million was made on 
February 6, 1997 and deposited in the Russian's New York account on 
February 10, 1997. The other two payments will automatically be made 
when Russia fulfills the stated milestones for the money.

    Question 12: Have any other payments to Russia been rescheduled as 
a result of problems with the Service Module?

    Answer 12: No, other payments to Russia have been rescheduled as a 
result of problems with the Service Module.

    Question 13: Do we have an estimate on how much it will cost to 
finish the Service Module?

    Answer 13: We have not formally asked for a cost estimate or 
partial cost estimate for completion of the Service Module. Informal 
estimates provided through RSA and Energia have ranged upward to $250 
million for its completion.

    Question 14: What options give us the necessary roll control that 
was to be provided by the Science Power Platform?

    Answer 14: The NRL ICM option (with modified FGB) would provide the 
necessary attitude control (incl. around the roll axis) of ISS through 
Flight 7A. At a later date, in the absence of the Service Module (SM), 
attitude control would also

[[Page 59]]

be one of the functions of a US-provided Propulsion Module. This 
additional capability is not required until the US truss is built and 
there is time to react if the SPP is late. Conceivably, attitude 
control could also be provided by a modified Progress spacecraft or by 
the Russia-supplied Universal Docking Module (UDM) planned for 
attaching at the nadir (Earth-pointing) port of the Service Module but, 
in case of no SM, utilizing the Node's nadir port instead.

    Question 15: According to the Protocol that was signed on January 
24, 1997, RSA is supposed to conduct the General Design Review for the 
Science Power Platform in March 1997. When is it anticipated the 
General Design Review will occur for the Science Power Platform?

    Answer 15: We have asked Russia for this information. In light of 
Russia's current schedule delays to the Service Module, NASA has major 
concerns with RSA's abilities to meet its other commitments and 
addressed the issue in formal protocol with Russia dated February 22, 
1997. As such, NASA has asked for and Russia has agreed to provide SPP 
financial, manufacturing, developing, schedules, and milestone 
information to NASA in March. RSA has agreed to provide NASA with 
periodic status updates and provide NASA with regular access to SPP 
hardware.

    Question 16: Is the U.S. required to provide a crew return vehicle 
(CRV) regardless of whether the Russians stay in the program and launch 
the Soyuz?

    Answer 16: The U.S. considers emergency crew return a program 
requirement and is planning to have a second crew return vehicle (CRV) 
as an alternative to Soyuz. This second source need not be U.S., but 
could be provided by another partner.
    The Soyuz on its own does not satisfy Space Station requirements 
for crew return. The Soyuz can be modified to relieve some of the crew 
related issues, but the long term solution requires a second CRV. 
Specific Soyuz CRV issues include:
    The Soyuz can accommodate three crewmembers, which would require 
three Soyuz vehicles docked to the Station to accommodate the ISS crew 
of seven. The three Soyuz CRV's would require frequent rotation as 
their on-orbit life is limited to one year.
    In addition to the logistical issues above, the Soyuz is too small 
to accommodate 60 percent of the current American astronaut population; 
has a significant training demand on U.S. astronauts; requires the crew 
to be in pressure suits affecting the ability to evacuate the station 
in an emergency. Further, the Soyuz does not meet medical requirements 
for care of ill or injured crewmembers during emergency return.

    Question 17: What is the schedule for the X-38? When would it be 
available for launch?

    Answer 17: Atmospheric flight testing will begin the middle of this 
year. Fabrication of the space flight test vehicle has started, and the 
X-38 space flight test is scheduled for 1999. ISS has stated that their 
requirement for the operational CRV is to be in place no later than 
June 2002, hopefully earlier.

    Question 18: How much is it expected to cost?

    Answer 18: NASA has a total of $80 million budgeted for X-38 
activities. This includes the atmospheric flight test vehicles, the 
space flight test vehicle, and an additional space-flight capable 
vehicle to be used for ground testing. Also included are development & 
testing of a berthing mechanism for attachment to the Station, the 
necessary ground handling and flight support equipment for the space 
flight test, operational tools and concepts to support the space flight 
test, as well as the deorbit module development for the space flight 
test. The launch cost for the Space flight test is not included in the 
$80 million.

    Question 19: What is the expected crew capacity of the CRV that 
results from the X-38 effort?

    Answer 19: The CRV will be able to accommodate up to six 95th-
percentile American male astronauts. Testing in the KC-135 has shown 
that, with a normal crew size distribution, the cabin could accommodate 
an additional crewmember, and that the emergency egress requirement (3 
minutes) can be met.

    Question 20: How much will the FGB cost?

    Answer 20: Approximately $210 million will be spent for the 
development of the FGB. The FGB is on schedule and budget for its 
planned available-for-launch date of November 1997.

    Question 20a: What portion of the Proton launch will the U.S. be 
responsible for?

    Answer 20a: The U.S. will not responsible for any portion of the 
Proton launch.


[[Page 60]]


    Question 21: Which Russian contractors would work on the FGB?

    Answer 21: FGB prime contractor (systems integrator) is Khrunichev 
State Research and Production Space Center. RSC-Energia (also known as 
Energia Association) is ``coexecutor'' collaborating with specialized 
operational and equipment support (ref. next reply). In addition, there 
are several smaller suppliers of subsystems and parts.

    Question 21a: Will Energia have any part of the assembly, and if 
so, is Energia willing to work with Khrunichev on the FGB2?

    Answer 21a: NPO Energia furnishes many of the avionics (onboard 
electronics) components, propulsion system valves, fittings and 
components, and the two docking mechanisms. The enhanced FGB (FGB 2), 
while currently not a recommended option, would also be assembled and 
integrated at Khrunichev and require similar collaboration from 
Energia. We have no doubt that Energia would be willing to continue its 
work with Khrunichev, should the RSA decide to choose the enhanced FGB 
(FGB 2) option.

    Question 21b: Is there any friction between the 2 Russian 
contractors?

    Answer 21b: There certainly exists rivalry between Energia and 
Khrunichev of the kind normal for companies competing in the same 
branch of business. However, they also cooperate to produce space 
hardware for commercial and government programs.

    Question 22: If the U.S. is responsible for outfitting the interior 
of the FGB2 with avionics and software, instead of Energia, will there 
be enough time to integrate our two systems by the expected launch date 
of the FGB2 (summer of 1998)?

    Answer 22: It would still likely impact the Service Module. 
Accordingly, the enhanced FGB is no longer a leading option, based on 
its impact to the program milestones.

    Question 23: What functions of the Service Module will not be 
provided by the FGB2?

    Answer 23: An enhanced FGB (FGB 2) would not provide life support 
equipment and crew accommodations such as quarters, galley, etc.

    Question 24: What will it cost the U.S. to provide early habitation 
capability on the U.S. lab?

    Answer 24: The U.S. Laboratory has already been designed to 
accommodate minimal habitation components, should the need arise. This 
is called ``scarring'' in the industry. Early permanent habitation 
capability on the U.S. lab would require an estimated additional $70 
million--$100 million for Environmental Control, Life Support and 
Flight Crew Equipment. This assumes a 3-person permanent crew, and 
includes a potable water processor, galley, crew sleep accommodations 
and oxygen generator. Additional crew would have to be located 
elsewhere. The precise cost for the modification is being carefully 
evaluated, and the answer is forthcoming.

    Question 25: What will be lost on the lab to reconfigure it for 
habitation capability (rack space)?

    Answer 25: The U.S. Laboratory can accommodate human presence for 
some finite period of time, while still providing an overall capability 
for its users. To meeting basic habitability needs, the Lab would lose 
27% (3\1/2\ racks of 13 user racks) of the interior user payload 
volume. Should the decision be made to configure the Lab with 
habitation racks, it is possible to reconfigure back to the original 
layout. This is our intent since habitation needs (crew motion, 
exercise, etc.) are in conflict with scientific (micro-gravity) 
requirements.

    Question 26: The Service Module was supposed to get propellant 
resupply from the Logistics Transfer Vehicle or the Progress vehicle. 
What will be used to resupply the FGB2?

    Answer 26: Should the enhanced FGB (FGB2) be used, the Russian 
Progress vehicle will be utilized to resupply it. Also, we are 
currently investigating the feasibility of all aspects related to FGB 
and Service Module refueling from the Shuttle, including the provision 
of Russian fuel tanks and associated hardware for integration onto a 
Space Shuttle pallet to provide a back-up refueling capability.

    Question 27: What will be modified in the FGB to transform it into 
the FGB2? (software; what else?)

    Answer 27: Should the enhanced FGB (FGB2) be utilized, the major 
changes to the FGB would be: Avionics to allow US control and 
desaturation (or dampening) of the control moment gyros (CMGs) which 
provide passive attitude control. A dif

[[Page 61]]

ferent propulsion engine configuration to allow attitude control 
(including roll) and reboost. Avionics to support Soyuz and Progress 
docking and refueling at the nadir port. Different docking mechanisms.

    Question 28: Will there be any docking concerns with docking the 
FGB and the FGB2?

    Answer 28: Should the enhanced FGB (FGB2) be utilized, there would 
be no obvious technical concern with docking these vehicles, with both 
sides of the interface belonging to the Russians.

    Question 29: Will you be able to build onto the Station through 
Flight 7A with the FGB2?

    Answer 29: Should the enhanced FGB (FGB2) be utilized and be able 
to meet the requirements that are currently being discussed, the answer 
would be yes. Given time, this vehicle could be built to the 
specifications, as there are no serious technical challenges, just 
schedule.

    Question 30: Under the Revision B assembly sequence, the FGB was 
supposed to be the active docker with the Service Module; will the FGB2 
be responsible for controlling the stack and maneuvering it over to the 
Service Module for docking?

    Answer 30: No. If the enhanced FGB (FGB2) is used the Service 
Module (SM) will be docked using the US Shuttle. First, the SM will be 
launched and placed in a following orbit via Progress, then the Shuttle 
will capture the SM, place it on the Shuttle docking system, and it 
will be directly docked to enhanced FGB (FGB2) in the same manner the 
Docking Module was added to MIR on STS 74.

    Question 30a: What are the technical concerns?

    Answer 30a: There would have been no major technical concerns with 
this option.

    Question 31: If the Administration pursues the FGB2 option, will it 
be patterned after the successful Boeing/Khrunichev contract for the 
original FGB? Or will it be a government-to-government transaction?

    Answer 31: NASA has several options for pursuing either the 
enhanced FGB (FGB2) or the agreed-upon FGB modifications. These options 
are currently being explored within NASA and will be discussed with RSA 
in March. A decision on the best approach will be made soon.

    Question 32: What is the status of the Naval Research Laboratory's 
work on the Interim Control Module (ICM)?

    Answer 32: The NRL ICM has completed the System Requirements Review 
with no major issues, with the exception that the on-orbit refueling 
capability requirement has not been fully resolved. NRL has been given 
authority to procure long lead items. The program/engineering team is 
in place. However, full funding has not been guaranteed at this time.

    Question 33: How much funding has been advanced to the Naval 
Research Laboratory to work on the ICM?

    Answer 33: Funding of $20.5 million has been sent to the Naval 
Research Laboratory for work on the ICM. The $0.5 million sent in 
December 1996 for a feasibility study has been expended. Later, funding 
of $20 million was forwarded for long lead items and staffing. As of 
March 1, approximately $4.1 million of the $20 million has been 
expended.

    Question 33a: How much has been expended?

    Answer 33a: As of March 1, 1997, an estimated total of $4,141,117 
has been expended.

    Question 34: Has a stop work order been issued at any point?

    Answer 34: In late January/early February, 1997 NASA verbally 
directed NRL to withhold any procurement of long-lead items and advised 
them to obtain NASA consent on all contracts. A stop work order was 
then issued to NRL regarding the ICM. Shortly thereafter, the stop work 
order was rescinded and NRL was directed by letter to reduce the scope 
of effort to ``the minimum technical and programmatic products to be 
developed on or before March 1, 1997.''

    Question 34a: Was NRL told verbally to stop any efforts to procure 
long-lead items? Has work been reinstated on the ICM?

    Answer 34a: On January 28, 1997, NASA verbally directed NRL to 
withhold any procurement long-lead items without NASA CO consent. This 
was followed by a fax

[[Page 62]]

from the CO dated February 5, 1997, directing NRL to obtain NASA CO 
consent on all contracts (excluding Propellant Management Devise Study) 
prior to award.

    Question 34b: Has work been reinstated on the ICM?

    Answer 34b: In a letter dated February 10, 1997, NASA rescinded the 
stop work order issued on February 7, 1997. In the February 10, 1997, 
letter, NRL was directed to reduce the scope of effort, such that ``the 
minimum technical and programmatic products to be developed on or 
before March 1, 1997, should include: a) maturing and documenting the 
technical design requirements, and b) developing an in-house processing 
of critical long-lead procurements up to the point of award.''

    Question 35: If Russia eventually delivers the Service Module, how 
does it dock with the stack and the ICM?

    Answer 35: If the U.S. continues the build of ISS past FGB and Node 
1 using the NRL ICM then the Service Module (SM) must be docked to the 
ISS using the Shuttle. Options are being reviewed where the NRL ICM 
might be used as an SM partial redundancy capability. Assuming an NRL 
ICM, it must be removed prior to SM delivery. It then could be redocked 
to the SM. For that to work, another vehicle must control the stack, 
either a potential US prop module, or the FGB outfitted with an 
upgraded PROM. (software upgrade in programmable read only memory.) The 
Shuttle would then deliver the SM on orbit.

    Question 35a: What is the proposed lifetime for the Naval Research 
Laboratory's (NRL) Interim Control Module?

    Answer 35a: The design life of the NRL ICM is three years, with 
enough fuel to perform Station control and reboost capabilities for 
approximately 1 year, plus an additional 6 months emergency fuel 
reserve. This is based on initial estimates.

    Question 35b: What will be the ICM's function when either the 
Service Module or Propulsion Module is launched?

    Answer 35b: If the Service Module (SM) is launched on time it may 
be possible to place the ICM on the aft of the SM to help with Progress 
shortfalls. Otherwise, the ICM is only used as a backup. If the SM is 
not launched on time, the ICM becomes the primary controlling vehicle 
until a potential Prop Module or Service Module is delivered. At that 
time, it will be de-orbited.

    Question 36: The modifications required for the Naval Research 
Laboratory's module have been described as minor.
    a. Can you briefly describe these modifications?

    Answer 36a: The 900 lb. thrust reboost engine replaced with a 100 
lb. thrust version. 1553 data bus computer interface added. Russian 
docking mechanisms added--Shuttle APAS on both ends for FGB interface & 
Shuttle docking system interface.
    Redundant S-Band, TDRS compatible communication system added.

    Question 36b: Who will perform the required modifications?

    Answer 36b: NRL, with the NASA NRL Team fully integrated into the 
process.

    Question 36c: If the decision is made to go forward with the ICM, 
how long will the modification process take?

    Answer 36c: The modification process will take 16 months.

    Question 36d: What is the total cost for the ICM option, including 
launch?

    Answer 36d: The total cost for the ICM option is $85 million plus 
launch costs ($84 million).

    Question 37: Will we need to make modifications to the FGB (launch 
in November 1997) in order to mate with either the ICM or FGB2? Who 
pays for these modifications?

    Answer 37: The February 22, 1997 Protocol states that NASA and RSA 
agree on the goal that the capability to dock the ICM to either the FGB 
or the Service Module (SM) will require minimum additional 
modifications to the FGB or SM. At this time no agreement has been 
entered into regarding the payment for FGB modifications and 
modifications of other hardware/software associated with this option. 
NASA and RSA agree that these issues require additional discussions.

    Question 38: Will you be able to build onto the Station through 
Flight 7A with the ICM?

    Answer 38: Yes, actually the NRL ICM will allow us to continue 
assembly through Flight 10A when a potential Propulsion Module could be 
available.


[[Page 63]]


    Question 39: Nowhere in Mr. Goldin's or Dr. Gibbon's testimony is 
there mention of the U.S. long-term replacement for the Service 
Module--the propulsion module. What is the status of the propulsion 
module option?

    Answer 39: It is still under consideration. We are clearly looking 
at the Propulsion Module as the long term propulsion solution for the 
Station. The Propulsion Module provides alignment control and reboost 
for the ISS. It does not provide the habitability accommodations 
available in the Service Module. An advantage of having a U.S. provided 
Propulsion Module is that it offers redundancy to the Service Module, a 
critical path item.

    Question 40: Reuters and Aerospace Daily are reporting that NASA is 
considering slipping the first element launch (FOB) from November 1997 
to May 1998.
    What types of costs will be incurred by delaying the first element 
launch? Are the costs primarily from the prime contract, because people 
will not be taken off the contract as soon?

    Answer 40: NASA is currently evaluating a slip to the first element 
launch as a contingency plan. If only the first few launches slip, any 
additional costs incurred would be mitigated by a reduction in 
overtime. There is no provision in the contract for storage of the FGB. 
Any additional costs incurred would be primarily from the prime Boeing 
contract due to maintaining workforce for a longer period of time.
    It should be noted that schedule flexibility is such that, within 
reason, it can accommodate a level of schedule compression on the front 
end without adversely extending the back side of the schedule.
</pre></body></html>
